1a
APPENDIX A
IN THE SUPREME COURT,
STATE OF WYOMING
[filed July 9, 2019]
JONMICHAEL GUY,
Appellant
(Plaintiff),
v.
THE WYOMING DEPARTMENT
OF CORRECTIONS, by and
through ROBERT O. LAMPERT,
individually and in his official
capacity as Director of the
Wyoming Department of
Corrections; JULIE TENNANTCAINE, individually and in her
official capacity as a Deputy
Administrator of the Wyoming
Department of Corrections; and
THE STATE OF WYOMING,
Appellees
(Defendants).
JONMICHAEL GUY,
Appellant
(Plaintiff),
v.
ROBERT O. LAMPERT,
individually and in his official
capacity as Director of the
Wyoming Department of
Corrections; JULIE TENNANTCAINE, individually and in her
official capacity as a Deputy
Administrator of the Wyoming
Department of Corrections; and

S-18-0231, S-18-0263

2a
WYOMING DEPARTMENT OF
CORRECTIONS, by and through
ROBERT O. LAMPERT, and
THE STATE OF WYOMING,
Appellees
(Defendants).

Appeal from the District Court
of Laramie County
The Honorable Thomas T.C. Campbell, Judge
Representing Appellant:
Steve C.M. Aron and Alexander J. Mencer, Aron &
Hennig, LLP, Laramie, Wyoming. Argument by Mr.
Aron.
Representing Appellees:
Bridget L. Hill, Attorney General; Michael J.
McGrady, Deputy Attorney General; Daniel E.
White, Senior Assistant Attorney General. Argument
by Mr. White.
Before DAVIS, C.J., and FOX, KAUTZ,
BOOMGAARDEN, and GRAY, JJ.
FOX, Justice.
[¶1] JonMichael Guy, an inmate in the custody of
the Wyoming Department of Corrections (WDOC),
sued the WDOC under 42 U.S.C. § 1983, seeking to
require that it recognize Humanism as a religion.
He sought declaratory and injunctive relief, and also
sought monetary damages from the WDOC’s Director, Robert O. Lampert, and its Deputy Administrator, Julie Tennant-Caine, in their individual capacities. After he filed his complaint, the WDOC officially recognized Humanism as a religion. As a result, the district court dismissed Mr. Guy’s com-

3a
plaint. In addition, the district court denied Mr.
Guy’s motion for attorney fees under 42 U.S.C.
§ 1988 because Mr. Guy was not a “prevailing party.” We affirm.
ISSUES
[¶2] We rephrase Mr. Guy’s issues:
1. Does the voluntary cessation exception
to the mootness doctrine apply in Wyoming?
2. Does the district court’s conclusion that
Mr. Guy failed to exhaust his administrative remedies require reversal?
3. Were Mr. Lampert and Ms. TennantCaine entitled to qualified immunity?
4. Did Mr. Guy preserve his argument that
the Defendants’ certificate of service, attached to their motion to dismiss, was
invalid?
5. Was Mr. Guy a “prevailing party” under
42 U.S.C. § 1988?
FACTS
[¶3] Mr. Guy is a WDOC inmate housed at the Wyoming Medium Correctional Institution (WMCI) in
Torrington. On December 8, 2017, Mr. Guy and the
American Humanist Association (AHA) filed a
complaint under 42 U.S.C. § 1983 against the
Wyoming Department of Corrections. 1 He also sued
After the WDOC recognized Humanism as a religion, AHA
chose not to appeal. As Mr. Guy recognizes in his brief in S18-0263, the “Director’s Executive Order . . . granted the majority of the injunctive and declaratory relief sought by Guy

1

4a
the Director of the WDOC, Robert O. Lampert, and
his Deputy Administrator, Julie Tennant-Caine, in
their official and individual capacities. Mr. Guy alleged that the WDOC refused to allow practicing
Humanists to “form a Humanist study group to
meet on the same terms that Defendants authorize
inmates of theistic religious traditions, and other
religions, to meet; and . . . to allow inmates to identify as Humanists for assignment purposes.” 2 He
claimed that the WDOC’s refusal violated the First
and Fourteenth Amendments to the United States
Constitution, and Article I, Sections 2, 6, 7, 18, and
19, of the Wyoming Constitution. He sought “injunctive and declaratory relief and [monetary] damages[.]”
[¶4] Mr. Guy raised two claims that are relevant to
this appeal. 3 In the first claim, he sought monetary
damages against Mr. Lampert and Ms. TennantCaine in their individual capacities. He sought
$120,000 for violation of his civil rights, unspecified
additional damages for “emotional distress, shame,
only in Count II, and substantially all the relief sought by
Plaintiff AHA.” Thus, we refer only to Mr. Guy as the plaintiff
and the appellant in this case.

In his complaint, Mr. Guy alleges: “Humanism adheres to a
broad world view that includes a non- theistic view on the
question of deities; an affirmative naturalistic outlook; an
acceptance of reason, rational analysis, logic, and empiricism
as the primary means of attaining truth; an affirmative recognition of ethical duties; and a strong commitment to human
rights.”
2

Mr. Guy also raised a third claim, in which he attempted to
bring a “direct action” against the State of Wyoming and the
WDOC “for violation of the Wyoming Constitution.” However,
he has abandoned that claim on appeal.

3

5a
humiliation, loss of enjoyment of life and mental anguish,” and “exemplary and punitive damages.”
[¶5] In his second claim, Mr. Guy sought declaratory
and injunctive relief. He requested an injunction to
preclude the Defendants from:

• Depriving him of his freedom of religion;
• Preventing him from associating with

other Humanist practicing inmates; and

• Favoring some religions over others.
In addition, he asked the district court to order that
the Defendants recognize Humanism as a religion,
permit a Humanist study group, and prohibit discrimination against all Humanist inmates. Finally,
Mr. Guy sought a declaratory judgment affirming his
right to practice Humanism, declaring that exclusion of Humanism violates the constitution, and declaring that the Defendants violated Mr. Guy’s constitutional rights.
[¶6] On December 29, 2017, after Mr. Guy had filed
his complaint, the WDOC executed a “Director’s Executive Order” that formally recognized Humanism
as a religion and added Humanism to the
WDOC’s “Handbook of Religious Beliefs and Practices.” It also recognized three Humanist holidays.
On January 23, 2018, the Defendants filed a motion to dismiss the complaint. They argued the executive order mooted Mr. Guy’s claims seeking
recognition of Humanism. They also argued his
“allusions” to specific Humanist practices, such as
fire ceremonies, a Humanist diet, and a Humanist
study group, in addition to being improperly
pleaded, were not ripe for review because Mr. Guy

6a
did not request that the WDOC permit these practices before filing suit. Finally, Mr. Lampert and
Ms. Tennant-Caine argued they were entitled to
qualified immunity as to Mr. Guy’s claim for monetary damages.
[¶7] The district court granted the Defendants’ motion. The court relied on the WDOC’s executive order
that added Humanism to the list of recognized religions to find Mr. Guy’s claims were moot. It concluded the mootness doctrine extinguished Mr.
Guy’s request for declaratory and injunctive relief
and his demand for monetary damages against
Mr. Lampert and Ms. Tennant-Caine. The court
rejected Mr. Guy’s argument that the voluntary cessation exception to the mootness doctrine applied because that exception had not been adopted in Wyoming. It did not address whether Defendants were
entitled to qualified immunity on Mr. Guy’s claim for
monetary damages because of its conclusion that this
claim was also moot.
[¶8] After the court dismissed his complaint, Mr.
Guy sought to recover his attorney’s fees under 42
U.S.C. § 1988(b). That statute permits the “prevailing party” in a case under § 1983 to recover “a
reasonable attorney’s fee.” The district court denied the motion because Mr. Guy was not a “prevailing party.” Mr. Guy appealed both of the
court’s orders. We consolidated his appeals for argument and decision.
DISCUSSION
[¶9] The majority of Mr. Guy’s complaint has been
remedied by the WDOC’s executive order, which
recognizes Humanism as a religion. The question,

7a
however, is whether the district court correctly dismissed all of Mr. Guy’s claims for relief.
STANDARD OF REVIEW
[¶10] We evaluate a district court’s decision on a
motion to dismiss de novo. Wyo. Guardianship
Corp. v. Wyo. State Hosp., et al., 2018 WY 114, ¶ 16,
428 P.3d 424, 432 (Wyo. 2018). We also apply de
novo review to determine whether an issue is moot,
In Interest of DJS-Y, 2017 WY 54, ¶ 6, 394 P.3d
467, 469 (Wyo. 2017), and to determine whether a
state official is entitled to qualified immunity. Abell
v. Dewey, 870 P.2d 363, 367 (Wyo. 1994).

I.

The voluntary cessation exception to the
mootness doctrine has not been adopted
in Wyoming

[¶11] The crux of Mr. Guy’s complaint was his request for an injunction that required the WDOC to
recognize Humanism as a religion. Because the
WDOC did just that when it issued its executive order, the district court concluded that Mr. Guy’s
complaint was moot. It then concluded that the voluntary cessation exception to the mootness doctrine,
which may apply in federal court, did not apply because this Court has never adopted that exception.
[¶12] On appeal, Mr. Guy contends that the district
court erred when it concluded that the voluntary
cessation exception to mootness does not apply in
Wyoming state courts. He does not, however, address the district court’s conclusion that the exception has never been adopted in Wyoming. Instead,
he simply asserts that the “State and Federal
Standards for Mootness are Consistent.” He then
goes on to cite to numerous federal opinions that

8a
have applied the voluntary cessation exception in
federal court. “[T]he central question in a mootness
case is ‘whether decision of a once living dispute
continues to be justified by a sufficient prospect that
the decision will have an impact on the parties.’”
Williams v. Matheny, 2017 WY 85, ¶ 15, 398 P.3d
521, 527 (Wyo. 2017) (quoting In re Guardianship of
MEO, 2006 WY 87, ¶ 27, 138 P.3d 1145, 1153-54
(Wyo. 2006)). 4 “However, there are three exceptions
to the operation of that doctrine which relate to issues of great public importance, issues with respect
to which it is necessary to provide guidance to state
agencies and lower courts, and controversies capable
of repetition while evading review.” City of Casper
v. Simonson, 2017 WY 86, ¶ 16 n.7, 400 P.3d 352,
355 n.7 (Wyo. 2017) (citations omitted).
[¶13] Mr. Guy did not rely on any of these exceptions in the district court. Instead, in his response
to the Defendants’ motion to dismiss, he made a
passing reference to the voluntary cessation exception which applies in federal courts. (citing Am.
Humanist Ass’n v. United States, et al., 63 F. Supp.
3d 1274 (D. Or. 2014)). In federal court: “It is well
settled that a defendant’s voluntary cessation of a
challenged practice does not deprive a federal
court of its power to determine the legality of the
practice.” City of Mesquite v. Aladdin’s Castle, 455
U.S. 283, 289, 102 S.Ct. 1070, 1074, 71 L.Ed.2d 152
We have referred to the mootness doctrine as an aspect of
standing. See Williams, 2017 WY 85, ¶ 15, 398 P.3d at 527
(“This doctrine represents the time element of standing by requiring that the interests of the parties which were originally
sufficient to confer standing persist throughout the duration of
the suit.”) (citations omitted).

4

9a
(1982). However, mootness doctrine in federal court
arises from constitutional Article III limitations on
jurisdiction. See, e.g., Powell v. McCormack, 395
U.S. 486, 496 n.7, 89 S.Ct. 1944, 1950 n.7, 23
L.Ed.2d 491 (1969). Article III limitations on federal courts, and any applicable exceptions to those
limitations, do not apply in state court: “We have
recognized often that the constraints of Article III
do not apply to state courts, and accordingly the
state courts are not bound by the limitations of a
case or controversy or other federal rules of justiciability even when they address issues of federal
law, as when they are called upon to interpret the
Constitution or, in this case, a federal statute.”
ASARCO Inc. v. Kadish, 490 U.S. 605, 617, 109
S.Ct. 2037, 2045, 104 L.Ed.2d 696 (1989) (citations
omitted) (emphasis added); Allred v. Bebout, 2018
WY 8, ¶ 35, 409 P.3d 260, 269 (Wyo. 2018) (recognizing state standing analysis “should not be governed by federal law”).
[¶14] Turning to Wyoming mootness doctrine, we
are unable to find any case where we have cited, let
alone adopted, the voluntary cessation exception.
Moreover, Mr. Guy presents no argument why we
should adopt the exception now. See Lemus v. Martinez, 2019 WY 52, ¶ 43, 441 P.3d 831, 841 (Wyo.
2019) (refusing to consider appellate argument not
supported by cogent argument) (citation omitted). 5
The closest exception we have to voluntary cessation is
when the issue is capable of repetition yet evades review.
See Operation Save America v. City of Jackson, 2012 WY 51, ¶
23, 275 P.3d 438, 449 (Wyo. 2012). Under this exception, “two
requirements must be met: First, the duration of the challenged
action must be too short for completion of litigation prior to
its cessation or expiration. Second, there must be a reasona-

5

10a
We affirm the district court’s decision that Mr. Guy’s
claim for injunctive relief is moot.

II.

The district court’s conclusion that Mr.
Guy failed to exhaust his administrative
remedies does not require reversal

[¶15] We now turn to Mr. Guy’s argument that the
district court improperly dismissed his complaint
“for failure to exhaust administrative remedies.” It is
true that, in its order, the district court faulted Mr.
Guy for failing to exhaust his administrative remedies under the Prison Litigation Reform Act of 1995
(the PLRA). See Chapman v. Wyo. Dept. of Corr.,
2016 WY 5, ¶ 16, 366 P.3d 499, 508 (Wyo. 2016)
(“The Prison Litigation Reform Act of 1995 requires
inmates to exhaust administrative remedies available to them before they can file a civil rights action pursuant to 42 U.S.C. § 1983.”) (internal
footnote omitted). Mr. Guy spends considerable
space in his brief arguing that a court cannot dismiss a § 1983 complaint under the PLRA for failure to exhaust because that is an affirmative defense and not a basis to dismiss at the pleading stage.
(citing Jones v. Bock, 549 U.S. 199, 212, 127 S.Ct.
910, 919, 166 L.Ed.2d 798 (2007)). We read the
district court’s dismissal for failure to exhaust as
an alternative basis to its mootness decision. (“Further, the Court finds [Mr. Guy] did not exhaust adble expectation that the same complaining party will be subjected to the same action again.” Circuit Court of Eighth Judicial Dist. v. Lee Newspapers, 2014 WY 101, ¶ 15, 332 P.3d 523,
528 (Wyo. 2014) (citations and quotation marks omitted). Mr.
Guy did not argue below and has not argued on appeal that
this exception applied. See, e.g., Meiners v. Meiners, 2019 WY
39, ¶ 25 n.4, 438 P.3d 1260, 1270 n.4 (Wyo. 2019).

11a
ministrative remedies, precluding [Mr. Guy’s] civil
rights action.”). Even if the court improperly concluded that Mr. Guy failed to exhaust, that does
not affect its mootness decision, and would, therefore, not require reversal. See W.R.A.P. 9.04 (“Any
error, defect, irregularity or variance which does not
affect substantial rights shall be disregarded by the
reviewing court.”).

III.

Mr. Lampert and Ms. Tennant-Caine were
entitled to qualified immunity

[¶16] Mr. Guy sought $120,000 from Mr. Lampert
and Ms. Tennant-Caine in their individual capacities; as well as unspecified damages for “emotional
distress, shame, humiliation, loss of enjoyment of
life, and mental anguish,” and “exemplary and punitive damages.” In their motion to dismiss, Mr. Lampert and Ms. Tennant-Caine argued that they were
entitled to qualified immunity. The district court
concluded that, because it was dismissing Mr.
Guy’s complaint as moot, it did not need to reach
the question of qualified immunity.
[¶17] On appeal, the Defendants concede that the
district court’s mootness decision did not dispose of
Mr. Guy’s claim for monetary relief. Nevertheless,
they argue that we can affirm the district court’s
decision to dismiss Mr. Guy’s damages claim because this Court may “affirm a district court’s action on appeal if it is sustainable on any legal
ground appearing in the record even if the legal
ground or theory articulated by the district court is
incorrect.”
[¶18] Before we can address the merits of the issue, we must first determine if it is appropriate in

12a
this case for us to decide an issue that the district
court did not directly address. Generally, we will
not consider an argument for the first time on appeal. See, e.g., Meiners, 2019 WY 39, ¶ 25 n.4, 438
P.3d at 1270 n.4. However, Mr. Lampert and Ms.
Tennant-Caine raised the issue of qualified immunity, and Mr. Guy addressed qualified immunity in
his response. This is not a case where there is no reviewable order in the record or where the district
court deferred its decision on an issue. See generally
Mantle v. North Star Energy & Construction LLC,
2019 WY 54, ¶¶ 20-24, 441 P.3d 841, 847-48 (Wyo.
2019). Rather, the district court recognized the
Defendants’ qualified immunity argument, but concluded, albeit erroneously, that its mootness decision disposed of the claim for monetary damages.
We have repeatedly held that we may affirm a
district court’s ultimate decision on any basis appearing in the record, even if that basis was not
relied upon by the district court in its decision. See,
e.g., Peterson v. Johnson, 28 P.2d 487, 490 (Wyo.
1934) (“Counsel argue further that the preliminary
injunction should not have been issued. It is evident,
however, in so far as that injunction is concerned,
that we could not reverse the case, if error was
committed in issuing it, if the ultimate decision
rendered herein is correct, for the error would
then be without prejudice.”) (citations omitted)
(emphasis added); Heilig v. Wyo. Game & Fish
Comm’n, 2003 WY 27, ¶ 8, 64 P.3d 734, 737 (Wyo.
2003). Given the procedural posture of this case,
(i.e., the facts as alleged in Mr. Guy’s complaint
are presumed true), whether Defendants were entitled to qualified immunity is a purely legal question.
See Abell, 870 P.2d at 367. Thus, we will address

13a
the Defendants’ argument that they are entitled to
qualified immunity.
[¶19] “Qualified immunity protects government
officials from civil liability if their conduct does
not violate clearly established statutory or constitutional rights of which a reasonable person would
have known.” Wyo. Guardianship Corp., 2018 WY
114, ¶ 19, 428 P.3d at 433 (citations and quotation
marks omitted). “To survive a motion to dismiss
based on qualified immunity, a plaintiff must allege
sufficient facts showing: (1) that the defendant’s actions violated a constitutional right; and (2) that
the right was clearly established at the time of the
alleged misconduct.” Id. (citations omitted).
[¶20] A court has the discretion to decide the
“clearly established” prong first. See Pearson v.
Callahan, 555 U.S. 223, 236, 129 S.Ct. 808, 818,
172 L.Ed.2d 565 (2009). To overcome qualified immunity, the alleged right at issue must be “clearly
established,” such that it is “beyond debate.” See,
e.g., Dist. of Columbia v. Wesby, — U.S. —, —, 138
S.Ct. 577, 589, 199 L.Ed.2d 453 (2018). “The dispositive inquiry in determining whether a right is
clearly established is whether it would be clear to a
reasonable officer that his conduct was unlawful in
the situation he confronted.” Hernandez v. Mesa,
— U.S. —,—, 137 S.Ct. 2003, 2007, 198 L.Ed.2d 625
(2017) (citation and quotation marks omitted). “This
demanding standard protects ‘all but the plainly
incompetent or those who knowingly violate the
law.’” Wesby, — U.S. at —, 138 S.Ct. at 589 (quoting
Malley v. Briggs, 475 U.S. 335, 341, 106 S.Ct. 1092,
1096, 89 L.Ed.2d 271 (1986)). To that end, the United States Supreme Court has emphasized the level of

14a
specificity a court must use to ascertain the alleged
right at issue:
Today, it is again necessary to reiterate the
longstanding principle that “clearly established law” should not be defined “at a high
level of generality.” Ashcroft v. al–Kidd, 563
U.S. 731, 742, 131 S.Ct. 2074, 179 L.Ed.2d
1149 (2011). As this Court explained decades
ago, the clearly established law must be
“particularized” to the facts of the
case. Anderson v. Creighton, 483 U.S. 635,
640, 107 S.Ct. 3034, 97 L.Ed.2d 523 (1987).
Otherwise, “[p]laintiffs would be able to convert the rule of qualified immunity . . .
into a rule of virtually unqualified liability
simply by alleging violation of extremely abstract rights.” Id., at 639, 107 S.Ct. 3034.
White v. Pauly, — U.S. —, —, 137 S.Ct. 548, 552, 196
L.Ed.2d 463 (2017) (per curiam) (emphasis added).
[¶21] We must first define the “right” at issue to
determine if that right was clearly established at
the time of the alleged constitutional violation. We
turn to the allegations in Mr. Guy’s complaint. He
attempted to overcome qualified immunity by defining the “right” at issue in general terms:
49. At all relevant times, the right of Guy
to freedom of religion was a clearly established legal principle that was well known to
Lampert and Tennant-Caine.
50. At the time of the violations set forth
herein, the prohibition against establishing or favoring one religion over another was a clearly established legal principle

15a
that was well known to Lampert and Tennant-Caine.
51. At the time of the violations set forth
herein, the prohibition by which Guy was
denied the same and equal treatment accorded to members of the WDOC Recognized Religions, and to the equal protection of the law was a clearly established
principle that was well known to Lampert
and Tennant-Caine.
(Emphasis added.) This type of generalization has
been expressly rejected by the United States Supreme Court. See White, — U.S. at —, 137 S.Ct. at
552. Mr. Guy’s complaint focused on the Defendants’
alleged refusal to allow him “to form a Humanist
study group to meet on the same terms that Defendants authorize inmates of theistic religious traditions, and other religions, to meet; and Defendants’ refusal to allow inmates to identify as Humanists for assignment purposes.” Thus, we conclude that the “right” at issue is Humanism’s status
as a “religion” for purposes of the First Amendment.
We will assume, without deciding, that Humanism is
a “religion” for purposes of the First Amendment.
[¶22] Having defined the “right” at issue, we now
turn to what authority a court may consider to ascertain whether that “right” was “clearly established” at the time of Defendants’ conduct. We begin
by determining whether there is United States Supreme Court precedent on point. See Wesby, — U.S.
at — n.8, 138 S.Ct. at 591 n.8. The law is not settled
on whether a court may look to a lower tribunal to
answer the question. Id. (“We have not yet decided
what precedents—other than our own—qualify as

16a
controlling authority for purposes of qualified immunity.”) (citing Reichle v. Howards, 566 U.S. 658,
665-66, 132 S.Ct. 2088, 2094, 182 L.Ed.2d 985
(2012)). Nevertheless, even if we may look to courts
other than the United States Supreme Court for
guidance, those decisions must put the question “beyond debate.” Wesby, — U.S. at —, 138 S.Ct. at 589;
Brown v. Montoya, 662 F.3d 1152, 1171 (10th Cir.
2011) (“[F]or the law to be clearly established, there
must be a Supreme Court or Tenth Circuit decision
on point, or the clearly established weight of authority from other courts must have found the law
to be as the plaintiff maintains.”) (citation omitted)
(emphasis added). 6 To defeat qualified immunity,
Mr. Guy must demonstrate that the question of
whether Humanism is a religion, for First Amendment purposes, has been placed “beyond debate.”
We conclude that he failed to carry his burden.
[¶23] In response to Defendants’ motion to dismiss,
Mr. Guy argued that “[t]he essence of a qualified
We have previously said that “[a] clearly established right is
one recognized by either the highest state court in the state
where the case arose, a United States Court of Appeals, or the
United States Supreme Court.” Park Cnty. v. Cooney, 845
P.2d 346, 352 (Wyo. 1992) (citing Robinson v. Bibb, 840 F.2d
349, 351 (6th Cir. 1988)). However, in Cooney, we failed to
recognize that the Robinson court was itself unsure what
constituted “clearly established law.” Robinson, 840 F.2d at
351 (“[W]e have had no specific Supreme Court guidance in
deciding when an issue becomes clearly established.”). We do
not need to resolve this question for purposes of this case. Mr.
Guy has not cited to any case from this Court or the Tenth
Circuit that would place the “right” at issue “beyond debate.”
As discussed further below, we are satisfied that, no matter
what authority we look to, Mr. Guy has failed to overcome
qualified immunity on the “clearly established” prong.

6

17a
immunity claim is factual” and that whether a right
was “clearly established . . . is a factual determination.” To the contrary, the United States Supreme
Court has established the “point that the appealable issue is a purely legal one: whether the facts
alleged (by the plaintiff, or, in some cases, the defendant) support a claim of violation of clearly established law.” Mitchell v. Forsyth, 472 U.S. 511,
528 n.9, 105 S.Ct. 2806, 2816 n.9, 86 L.Ed.2d 411
(1985) (emphasis added).
[¶24] Mr. Guy attempts to prove that the right at
issue was “clearly established” by citing Am. Humanist Ass’n, 63 F. Supp. 3d 1274, a case from the
United States District Court for the District of Oregon. There, the district court denied the defendants’
qualified immunity defense where the defendants
had refused the inmate’s request to form a “Humanist study group or an Atheist study group, or
to recognize Humanism as a religious assignment.” Id. at 1278. It relied on a footnote from Torcaso v. Watkins, 367 U.S. 488, 81 S.Ct. 1680, 6
L.Ed.2d 982 (1961), in which “the Supreme Court . . .
referred to ‘Secular Humanism’ as a religion.” Am.
Humanist Ass’n, 63 F. Supp. 3d at 1286 (citing
Torcaso, 367 U.S. at 495 n.11, 81 S.Ct. at 1684
n.11). That single case does not represent the great
weight of authority that has placed the question
beyond debate, as demonstrated by the D.C. Circuit
Court of Appeals’ discussion:
The Court’s statement in Torcaso does not
stand for the proposition that humanism,
no matter in what form and no matter
how practiced, amounts to a religion under
the First Amendment. The Court offered no

18a
test for determining what system of beliefs
qualified as a “religion” under the First
Amendment. The most one may read into
the Torcaso footnote is the idea that a particular non-theistic group calling itself the
“Fellowship of Humanity” qualified as a religious organization under California law.
See Grove v. Mead Sch. Dist. No. 354, 753
F.2d 1528, 1537 (9th Cir. 1985) (Canby, J.,
concurring) (quoting Malnak [v. Yogi], 592
F.2d [197], 206, 212 [(3d Cir. 1979)]). See
also Alvarado v. City of San Jose, 94 F.3d
1223, 1228 & n.2 (9th Cir. 1996) (citing cases supporting the limited scope of the Torcaso footnote); Peloza v. Capistrano Unified
Sch. Dist., 37 F.3d 517, 521 (9th Cir. 1994)
(“[N]either the Supreme Court, nor this
circuit, has ever held that evolutionism or
secular humanism are ‘religions’ for Establishment Clause purposes.”).
Kalka v. Hawk, 215 F.3d 90, 99 (D.C. Cir. 2000).
[¶25] We need not resolve whether Humanism is a
recognized religion for First Amendment purposes.
Rather, our only task is to determine whether
“clearly established” law places the question “beyond
debate.” Because it does not, we conclude Mr. Lampert and Ms. Tennant-Caine were entitled to qualified immunity as to Mr. Guy’s claim for monetary
damages.

19a

IV.

Mr. Guy did not preserve his argument
that the Defendants’ certificate of service
was invalid

[¶26] In a single sentence of his response to the motion to dismiss, Mr. Guy stated: “As a separate,
procedural matter, Defendants’ Motion and Memorandum have not been properly served on the
Plaintiffs in accordance with the express provisions
of the applicable Wyoming Uniform Rules of the
District Courts.” In a footnote, the district court
declined to address Mr. Guy’s assertion because he
“fail[ed] to present a specific rule Defendants violated or any facts to support [his] allegation.”
[¶27] On appeal, Mr. Guy attempts to augment his
argument by citing to the certificate of service the
Defendants attached to their motion to dismiss,
which was signed by a paralegal rather than their
attorney. Mr. Guy then appears to argue that this
certificate of service violated W.R.C.P. 5(d)(1), which
requires a party to attach a certificate of service to
“[a]ny paper [filed] after the complaint,” and Rule
302(a)(3) of the Uniform Rules for District Courts,
which requires the attorney “for the party making
service” to sign the certificate of service.
[¶28] Mr. Guy did not raise his argument that the
service violated W.R.C.P. 5 below, and we therefore
decline to address it here. See Meiners, 2019 WY 39,
¶ 25 n.4, 438 P.3d at 1270 n.4. With respect to the
alleged violation of U.R.D.C. 302, Mr. Guy presents
no argument other than a citation to the rule. He
does not contend that the allegedly defective certificate caused him any prejudice, nor could he, as he
received the WDOC’s filings and responded to them
without asserting that the service affected his abil-

20a
ity to respond in a timely manner. See W.R.A.P.
9.04. 7

V.

Mr. Guy was not a “prevailing party” under 42 U.S.C. § 1988

[¶29] After the district court dismissed his complaint, Mr. Guy filed a motion to recover attorney’s
fees under 42 U.S.C. § 1988. Because it dismissed
his complaint as moot, the district court concluded
that Mr. Guy was not a “prevailing party.”
[¶30] In a § 1983 case, a court may award reasonable attorney fees to the “prevailing party.” 42
U.S.C. § 1988(b). Whether a litigant is a “prevailing
party” is a question of law that we review de novo.
Kansas Judicial Watch v. Stout, 653 F.3d 1230, 1235
(10th Cir. 2011); Morris v. CMS Oil & Gas Co., 2010
WY 37, ¶ 36, 227 P.3d 325, 335 (Wyo. 2010). Mr.
Guy argues that he is a prevailing party because he
improved his position by the litigation in that the
WDOC granted him the relief requested in his complaint via the executive order recognizing Humanism as a religion. The State asserts that Mr. Guy did
not carry his burden of establishing prevailing party
status because he did not show that his lawsuit was
causally linked to the WDOC’s executive order or
that he “received any form of judicial relief on the
merits of his claims.”
[¶31] Mr. Guy relies on the “catalyst theory” which
“posits that a plaintiff is a ‘prevailing party’ if it
achieves the desired result because the lawsuit
brought about a voluntary change in the defendant’s
7 We take no position on whether the certificate of service violated either W.R.C.P. 5 or U.R.D.C. 302.

21a
conduct.” Buckhannon Bd. & Care Home, Inc. v. W.
Va. Dep’t of Health & Human Res., 532 U.S. 598,
601, 121 S.Ct. 1835, 1838, 149 L.Ed.2d 855 (2001).
Prior to the United States Supreme Court’s decision
in Buckhannon, nearly all federal courts of appeals
recognized that a showing that the plaintiff’s suit
served as the catalyst for the defendant’s remedial action qualified the plaintiff as a prevailing
party. Id.; see also, e.g., MacLaird v. Werger, 723 F.
Supp. 617, 618-19 (D. Wyo. 1989).
[¶32] In Buckhannon, the Court overturned “legions of federal-court decisions,” id. at 628, 121
S.Ct. at 1853 (Ginsburg, J., dissenting), holding that
“the ‘catalyst theory’ is not a permissible basis for
the award of attorney’s fees[.]” Id. at 610, 121
S.Ct. at 1843. There, the plaintiff sought declaratory and injunctive relief against West Virginia, two of
its agencies, and 18 individuals under the Fair
Housing Amendments Act (FHAA) and the Americans with Disabilities Act (ADA). Id. at 601, 121
S.Ct. at 1838. Less than a month after the federal
district court denied the state’s summary judgment
motion, the state legislature repealed the statute
challenged in the litigation. Id. at 624, 121 S.Ct. at
1850. The defendants moved to dismiss the case
as moot, and the plaintiffs sought attorney’s fees
as the “prevailing party” under the FHAA, 42
U.S.C. § 3613(c)(2), and the ADA, 42 U.S.C. §
12205. 8 Id. at 624, 121 S.Ct. at 1850-51. The Court
8 Although the case was not decided under 42 U.S.C. § 1988(b),
the Court applied precedent interpreting 42 U.S.C. § 1988(b)
and observed that it approaches these “nearly identical” civil
rights fee-shifting provisions consistently. Id. at 603 n.4, 121
S.Ct. at 1839 n.4.

22a
affirmed the judgment denying the plaintiff’s motion
for attorney’s fees, holding the term “prevailing party” does not include “a party that has failed to secure a judgment on the merits or a court-ordered
consent decree, but has nonetheless achieved the desired result because the lawsuit brought about a
voluntary change in the defendant’s conduct.” Id. at
600, 121 S.Ct. at 1838.
[¶33] Mr. Guy would have this Court ignore that
holding and instead rely on state fee- shifting statutes. See Schaub v. Wilson, 969 P.2d 552, 561
(Wyo. 1998) (interpreting “prevailing party” in Wyo.
Stat. Ann. § 1-14-124); Morris, 2010 WY 37, ¶¶ 3546, 227 P.3d at 334-37 (interpreting “prevailing party” in Wyo. Stat. Ann. § 30-5-303(b)).
However, these cases do not control interpretation
of “prevailing party” in 42 U.S.C. § 1988(b). Instead, this Court, “like the lower federal courts, [is]
bound by the supremacy clause of the federal Constitution” to follow the United States Supreme
Court’s interpretation of section 1988. See Martin A.
Schwartz & John E. Kirklin, Sec. 1983 Litig. Stat.
Att’y Fees § 1.07 (4th ed. 2019-1 Supp.), Westlaw.
It is the United States Supreme Court’s “responsibility to say what a [federal] statute means, and once
the Court has spoken, it is the duty of other
courts to respect that understanding of the governing rule of law.” James v. City of Boise, Idaho,
— U.S. —, —, 136 S.Ct. 685, 686, 193 L.Ed.2d 694
(2016) (per curiam) (reversing the Idaho Supreme
Court’s conclusion that it was not bound by the
Supreme Court’s interpretation of § 1988) (quoting Nitro-Lift Technologies, L.L.C. v. Howard, 568
U.S. 17, 20, 133 S.Ct. 500, 503, 184 L.Ed.2d 328

23a
(2012) (per curiam)). Because the United States
Supreme Court has decided the meaning of “prevailing party” in 42 U.S.C. § 1988, we are bound
by that interpretation—Buckhannon governs. 9 Mr.
Guy did not obtain a judgment on the merits, a
court-ordered consent decree, or any other form of
judicial relief. The WDOC’s “voluntary change in
conduct, although perhaps accomplishing what [Mr.
Guy] sought to achieve by the lawsuit, lacks the necessary judicial imprimatur” to make him a prevailing
party under the statute. Buckhannon, 532 U.S. at
605, 121 S.Ct. at 1840.
[¶34] Other cases Mr. Guy cites are distinguishable.
For example, Balla v. Idaho, 677 F.3d 910, 914
(9th Cir. 2012), held that reasonable attorney’s
fees could be awarded when the plaintiffs’ contempt motion quickly brought the defendants into
compliance with an existing injunction, even though
the court denied the contempt motion. However,
there, the plaintiffs “had long ago won their injunction . . . and they did not have to win further judicial relief to get paid for their lawyers’ work.” Id.
at 919-20. The court reasoned that Buckhannon
“speaks to the case where there never has been
judicially ordered relief,” but not to cases where
there has been judicial relief that may require additional monitoring and enforcement. Id. at 918.
Mr. Guy’s case is distinguishable, and according to
Balla’s reasoning, is controlled by Buckhannon beThat is not to say that our interpretation of “prevailing
party” in Wyo. Stat. Ann. § 1-14-126(b) (LexisNexis 2019)
and Wyo. Stat. Ann. § 30-5-303(b) (LexisNexis 2019) is no longer
sound. State courts are the final arbiters of the meaning of
state law.
9

24a
cause “there never has been judicially ordered relief.”
[¶35] Likewise, Nat’l Rifle Ass’n of Am. v. City of
Chicago, Ill., 646 F.3d 992 (7th Cir. 2011), does not
support Mr. Guy’s position. There, the court held the
plaintiffs qualified as the prevailing party despite
repeal of ordinances that rendered the plaintiffs’
case moot. Id. at 993-94. However, the repeal was a
direct result of a United States Supreme Court decision holding that the Second Amendment applies to
states and municipalities and reversing dismissal
of the plaintiffs’ claims. Id. In contrast to Buckhannon, the plaintiffs “achieved a decision that alter[ed] ‘the legal relationship of the parties’” because
the central issue in the litigation had been conclusively established. Id. at 994.
The court concluded that “[b]y the time defendants
bowed to the inevitable, plaintiffs had in hand a
judgment of the Supreme Court that gave them
everything they needed. If a favorable decision of
the Supreme Court does not count as ‘the necessary
judicial imprimatur’ on the plaintiffs’ position . . . ,
what would?” Id. (citing Buckhannon, 532 U.S. at
605, 121 S.Ct. at 1840). Here, Mr. Guy has not obtained any favorable court decision.
[¶36] Other cases Mr. Guy cites precede Buckhannon, which overturned “legions of federal-court decisions” relying on the catalyst theory. Leroy v.
City of Houston, 831 F.2d 576, 579 (5th Cir. 1987);
Love v. Mayor, City of Cheyenne, 620 F.2d 235 (10th
Cir. 1980); MacLaird, 723 F. Supp. 617; Texas State
Teachers Ass’n v. Garland Indep. Sch. Dist., 489
U.S. 782, 109 S.Ct. 1486, 103 L.Ed.2d 866 (1989).
See also Skinner v. Uphoff, 324 F. Supp. 2d 1278 (D.

25a
Wyo. 2004) (awarding § 1988 attorney’s fees after
the court granted summary judgment in the plaintiff’s favor); Silverman v. Villegas, 894 N.E.2d 249,
256 (Ind. App. 2008) (holding plaintiffs were prevailing parties under section 1988 because the court entered summary judgment in their favor on their
state law claim that arose out of the common nucleus of operative fact implicated by their constitutional claims).
[¶37] Because the district court dismissed Mr. Guy’s
complaint as moot, and we conclude that Mr. Lampert and Ms. Tennant-Caine were entitled to qualified immunity, Mr. Guy has not obtained the “judicial imprimatur” necessary to qualify as the “prevailing party.” We affirm the district court’s denial of
his attorney’s fees.
CONCLUSION
[¶38] For the reasons discussed above, we affirm
both of the district court’s orders. The voluntary cessation exception to the mootness doctrine has not
been adopted in Wyoming, and Mr. Lampert and
Ms. Tennant-Caine were entitled to qualified immunity. Finally, Mr. Guy was not a “prevailing party” under 42 U.S.C. § 1988. Affirmed.

26a
APPENDIX B
STATE OF WYOMING )
) SS.
COUNTY OF LARAMIE )
)

IN THE DISTRICT
COURT
FIRST JUDICIAL
DISTRICT
[filed Aug. 23, 2018]

JONMICHAEL GUY and
AMERICAN HUMANIST
ASSOCIATION,
Plaintiffs,
vs.
ROBERT O. LAMPERT,
individually and in his official
capacity, JULIE TENNANTCAINE, individually and in her
official capacity, THE STATE OF
WYOMING, and the WYOMING
DEPARTMENT OF
CORRECTIONS, by and through
Robert O. Lampert, in his official
capacity as Director of the
Department of Corrections,
Defendants.

Docket No. 189-001

ORDER GRANTING DEFENDANTS’ MOTION
TO DISMISS
This matter is before the Court on Defendants’ Motion to Dismiss, filed on January 23, 2018. The Court
has considered the motion, response, reply, and oral
argument, and is fully informed in the premises. For
the following reasons, Defendants’ motion is
GRANTED, and Plaintiffs’ Complaint is DISMISSED.

27a
BACKGROUND
Currently, Defendant Jonmichael Guy (“Guy”) is
incarcerated at the Wyoming Medium Correctional
Institution in Torrington, Wyoming. The Wyoming
Department of Corrections (“WDOC”) has maintained
custody of Guy since 2006. Before his current location,
Guy was incarcerated at the Wyoming State Penitentiary in Rawlins, Wyoming and the Honor Conservation Camp in Newcastle, Wyoming. Throughout Guy’s
incarceration, he has sought judicial relief in various
forms. Most recently, on May 2, 2017, Guy filed a
lengthy 42 U.S.C. § 1983 action in the United States
District Court for the District of Wyoming. See Defs.’
Ex. F. United States District Judge Alan B. Johnson
granted the defendants’ motion to dismiss in December 2017, finding Guy failed to state a plausible 42
U.S.C. § 1983 claim. See Defs.’ Ex. E.
While Guy’s federal action was pending, he filed a
Complaint with this Court in December 2017. The
crux of Plaintiffs’ allegations stem from Guy’s desire
for the WDOC to recognize Humanism as a faithbased group. 1 On February 7, 2017, Guy submitted a
request for WDOC to recognize Humanism as a faith
group. See Defs.’ Ex. C. At that time, Humanism was
1

Plaintiffs state:

Humanism adheres to a broad world view that includes a
non-theistic view on the question of deities; an affirmative
naturalistic outlook; an acceptance of reason, rational analysis, logic, and empiricism as the primary means of attaining
truth; an affirmative recognition of ethical duties; and a
strong commitment to human rights.

Pls.’ Compl. at 3, ¶ 21. AHA promotes Humanism and is a membership organization with chapters and affiliates nationwide. See
id. ¶ 16-17.

28a
not formally recognized as a faith group. On December
29, 2017, Humanism was added as a recognized faith
group to WDOC Handbook of Religious Beliefs and
Practices. See Defs.’ Ex. A.
On December 8, 2017, Guy and the American Humanist Association (“AHA”) filed suit against Robert
O. Lampert, individually and in his official capacity,
Julie Tennant-Caine, individually and in her official
capacity, the State of Wyoming, and the WDOC (collectively “Defendants”). 2 Plaintiffs claim Defendants
violated the Free Exercise Clause, Establishment
Clause, Equal Protection Clause, WYO. CONST. art. I,
§§ 2, 6, 7, 18, 19, and 42 U.S.C. § 1983. See Pls.’ Compl.
at 1-2. Specifically, in Count I, Plaintiffs seek monetary damages from Lampert and Tennant-Caine in
their individual capacity for violating 42 U.S.C. §
1983. 3 See id. at 4-7, ¶¶ 32-54. In Count II, Plaintiffs
seek declaratory and injunctive relief against the
State of Wyoming, WDOC, and Lampert and Tennant-Caine in their official capacities pursuant to 42
U.S.C. § 1983. 4 See id. at 7-10, ¶¶ 55-73. In Count III,
Plaintiffs seek direct action against the State of Wyoming and WDOC for violating the Wyoming Constitution. See id. at 10-11, ¶¶ 74-81.

In Guy’s federal civil action, Robert O. Lampert was a defendant.
2

Plaintiffs claim Defendants violated the First and Fourteenth
Amendments. See id. at 6-7, VI 46-48.
3

4 Plaintiffs state: “To redress these constitutional violations, Guy
and AHA seek injunctive and declaratory relief under the provisions of 42 U.S.C. § 1983, against Defendants State of Wyoming,
[WDOC], and Lampert and Tenant-Caine in their official capacities.” Id. at 8, ¶ 64.

29a
Instead of filing an Answer to Plaintiffs’ Complaint, Defendants filed this motion on January 23,
2018. Defendants argue dismissal is appropriate because this Court lacks subject matter jurisdiction, Defendants are immune from suit, res judicata bars
Plaintiffs’ claims, and Plaintiffs fail to state a claim
upon which relief may be granted. See Defs.’ Mot. to
Dismiss. Plaintiffs filed a response on February 21,
2018, Defendants replied on March 2, 2018, and the
Court heard oral argument on June 4, 2018.
LEGAL STANDARD
Lack of Subject Matter Jurisdiction
Wyoming Rule of Civil Procedure 12(b)(1) allows a
party to present a defense to a claim for relief based
on the Court’s lack of subject matter jurisdiction. See
WYO. R. CIV. P. 12(b)(1). “Subject matter jurisdiction
is ‘the power to hear and determine cases of the general class to which the proceedings in question belong.” Weller v. Weller, 960 P.2d 493, 495 (Wyo. 1998)
(citation omitted). Subject matter jurisdiction “either
exists or it does not, and a Court should be satisfied
that it possesses subject matter jurisdiction before it
makes a decision in a case. Id. (‘Subject matter jurisdiction is not a subject of judicial discretion.”). If the
Court lacks subject matter jurisdiction, then “action
taken by that Court, other than dismissing the case,
is considered to be null and void.” Id. at 496. The Wyoming Supreme Court explains:
It is fundamental, if not axiomatic, that, before
a Court can render any decision or order having
any effect in any case or matter, it must have
subject matter jurisdiction. Jurisdiction is essential to the exercise of judicial power. Unless

30a
the Court has jurisdiction, it lacks any authority to proceed, and any decision, judgment, or
other order is, as a matter of law, utterly void
and of no effect for any purpose. Subject matter
jurisdiction, like jurisdiction over the person, is
not a subject of judicial discretion. There is a
difference, however, because the lack of jurisdiction over the person can be waived, but lack
of subject matter jurisdiction cannot be.
Id.
Implicit in subject matter jurisdiction is that the
plaintiff has standing to sue. See Halliburton Energy
Servs. Inc. v. Gunter, 2007 WY 151, ¶ 10, 167 P.3d 645,
649 (Wyo. 2007) (Standing “is an aspect of subject
matter jurisdiction.”). Standing “requires a ‘legally
protectable and tangible interest at stake in the litigation.’” Id. ¶ 11, 167 P.3d at 649 (citation omitted).
To have standing, “[t]he person alleging standing
must show a ‘perceptible,’ rather than a `speculative’
harm from the action; a remote possibility of injury is
not sufficient to confer standing.” Id. (citation omitted).
Failure to State a Claim
When a party moves to dismiss a complaint under
Rule 12(b)(6) for failure to state a claim upon which
relief may be granted, this Court construes the facts
alleged in the complaint to be true and views them in
the light most favorable to the plaintiff. The Tavern,
LLC v. Town of Alpine, 2017 WY 56, ¶ 21, 395 P.3d
167, 173 (Wyo. 2017). To prevail, the movant must
show that “from the face of the complaint [] the plaintiff cannot assert any facts which would entitle him to
relief.” Hill v. Stubson, 2018 WY 70, ¶ 11, 420 P.3d

31a
732, 737 (Wyo. 2018) (citation omitted). However, because dismissal is a drastic remedy, it “should be
granted sparingly.” Whitham v. Feller, 2018 WY 43, ¶
13, 415 P.3d 1264, 1267 (Wyo. 2018). “That said, the
lens through which we look and our liberal construction of pleadings ‘does not excuse an omission of that
which is material and necessary in order to entitle one
to relief.’” The Tavern, LLC, ¶ 21, 395 P.3d at 173 (citation omitted).
DISCUSSION
In their Complaint, Plaintiffs allege Defendants violated the Free Exercise and Establishment Clauses
of the First Amendment and the Equal Protection
Clause of the Fourteenth Amendment. Through these
violations, Plaintiffs ask the Court for declaratory, injunctive, and monetary relief pursuant to 42 U.S.C.
§ 1983. Plaintiffs also ask the Court to hold the State
of Wyoming liable for Lampert’s and Tennant-Caine’s
alleged violations of the Wyoming Constitution. In response, Defendants argue Plaintiffs’ Complaint
should be dismissed in its entirety for a variety of reasons, including lack of subject matter jurisdiction, immunity, res judicata, and failure to state a claim.
Plaintiffs’ claims are addressed separately below. 5

In Plaintiffs’ response to Defendants’ Motion to Dismiss, Plaintiffs briefly claim Defendants did not properly serve Plaintiffs
with the Motion to Dismiss. See Pls.’ Br. Opposing Mot. to Dismiss at 2. Plaintiffs broadly assert they were not served “in accordance with the express provisions of the applicable Wyoming
Uniform Rules of the District Courts.” Id. The Court will not address Plaintiffs’ claim because Plaintiffs fail to present a specific
rule Defendants violated or any facts to support their allegation.
5

32a
A. Count I: Monetary Damages for Civil
Rights Violations Against Lampert and
Tennant-Caine In Their Individual Capacity
Plaintiffs’ first claim is for monetary damages
against Lampert and Tennant Caine, in their individual capacity, in the amount of $120,000.00. 6 See Pls.’
Compl. at 4-5, ¶¶ 33, 52. Plaintiffs allege Lampert and
Tennant-Caine violated 42 U.S.C. § 1983 by implementing various administrative policies concerning
an inmate’s religious rights. See id. at 5, ¶ 36. Section
1983 provides:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress, except
that in any action brought against a judicial of-

To the extent Plaintiffs seek money damages from Lampert and
Tennant-Caine in their official capacity pursuant to 42 U.S.C.
§ 1983, their request is denied. It is understood that [s]uits
against state officials in their official capacity should be treated
as suits against the State.” Chapman v. Wyo. Dep’t of Corr., 2016
WY 5, ¶ 28, 366 P.3d 499, 512 (Wyo. 2016). In a 42 U.S.C. § 1983
action, “neither a State nor its officials acting in their official capacities are `persons’ under § 1983” Id. (citation omitted). “As
such, there is no cause of action for damages under 42 U.S.C.
§ 1983.” Id.

6

33a
ficer for an act or omission taken in such officer’s judicial capacity, injunctive relief shall
not be granted unless a declaratory decree was
violated or declaratory relief was unavailable.
For the purposes of this section, any Act of Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of
the District of Columbia.
42 U.S.C. § 1983 (emphasis added). To prevail,
Plaintiffs must show: “(1) that the conduct complained of was engaged in under color of state law,
and (2) that such conduct subjected the plaintiffs
to a deprivation of rights, privileges, or immunities
secured by the Constitution and laws of the United
States.” Teton Plumbing & Heating, Inc. v. Bd of
Tr., Laramie Cty. Sch. Dist. No. One, 763 P.2d 843,
847 (Wyo. 1988) (citations omitted).
Before the Court addresses the merits of Plaintiffs’
claim, the Court must decide whether this Court has
subject matter jurisdiction. If the Court lacks jurisdiction then the analysis ends. It is well-settled that
“[s]tate Courts have concurrent jurisdiction with the
federal Courts over § 1983 actions.” Id. at 847 n.2.
Concurrent jurisdiction allows this Court to hear
Plaintiffs’ 42 U.S.C. § 1983 claims, but both Guy and
AHA must have standing to sue. 7 The Wyoming Supreme Court views standing as “an aspect of subject
matter jurisdiction.” Gunter, 2007 WY 151, ¶ 10, 167
P.3d at 649; see Gooden v. State, 711 P.2d 405, 408
(Wyo. 1985) (“A basic premise of our system of jurisprudence is that one must have standing to raise any
7 Associational standing is not addressed because Count I is decided on other grounds.

34a
question in our Courts.”). “The Supreme Court of the
United States has said that a plaintiff must allege
‘such a personal stake in the outcome of the controversy’ as will justify the assumption of jurisdiction by
the Court.” Gooden, 711 P.2d at 408 (citation omitted).
This requirement is “one pursuant to which a plaintiff
must suffer ‘some threatened or actual injury resulting from the putatively illegal action.’” Id. (citation
omitted). Similarly, the Wyoming Supreme Court explains “a plaintiff must have a ‘legally protectable and
tangible interest at stake.’” Id. (citation omitted). Additionally, ancillary to standing is mootness. The Wyoming Supreme Court states:
The doctrine of mootness encompasses those
circumstances which destroy a previously justiciable controversy. This doctrine represents the
time element of standing by requiring that the
interests of the parties which were originally
sufficient to confer standing persist throughout
the duration of the suit. Thus, the central question in a mootness case is “whether decision of
a once living dispute continues to be justified by
a sufficient prospect that the decision will have
an impact on the parties.”
Merchant v. State Dep’t of Corr., 2007 WY 159, ¶ 15,
168 P.3d 856, 863 (Wyo. 2007) (citations omitted).
On December 29, 2017, Defendants fully remedied
Plaintiffs’ complaints by issuing an Executive Order
(“Order”) directing Humanism to be added to the
WDOC Handbook of Religious Beliefs and Practices.
See Defs.’ Ex. A. The Order states: “After receiving
several inquiries to add this faith group and further
investigation it has been determined that said faith
group shall be a recognized faith group.” Id. The same

35a
month the Order was issued, Plaintiffs filed their
Complaint. Plaintiffs’ Complaint was filed on December 8, 2017, twenty-one (21) days before the Order.
Throughout the Complaint, Plaintiffs’ opposition to
Defendants’ Motion to Dismiss, and during oral argument, Plaintiffs continued to allege harms that were
resolved. 8 Because Plaintiffs’ claims center on an issue that Defendants resolved, the Court finds Plaintiffs’ claims are moot. See, e.g., Merchant, 2007 WY
159, ¶ 15, 168 P.3d at 862 (“A Court should not hear a
case where there has been a change in circumstances
occurring either before or after a case has been filed
that eliminates the controversy.”).
Plaintiffs attempted to evade the mootness doctrine by asserting the voluntary cessation exception,
citing Am. Humanist Ass’n v. U.S., 63 F. Supp. 1274
(D. Or. 2014). See Pls.’ Br. Opposing Mot. to Dismiss
at 21. In Am. Humanist Ass ‘n, inmate Holden requested Humanism to be recognized as a religion and
to engage in the practice of Humanism. Am. Humanist
Ass ‘n v. U.S., 63 F. Supp. 1274, 1278-81 (D. Or. 2014).
Before filing suit, Holden submitted several requests
to defendants, exhausting his administrative remedies. Id. at 1280. After filing suit, defendants added
Humanism to the program schedule. See id. Despite
Humanism having been added to the program schedule, Holden alleged defendants continued to discriminate against Humanists by not allowing outside Humanist volunteers to visit or the ability to obtain certain materials. Id. at 1280-81. Relevant here, defendants filed a motion to dismiss because Holden’s claims
were moot. See id. at 1281. The United States District
8 At the hearing, Plaintiffs acknowledged the Order diminishes
their case.

36a
Court for the District of Oregon denied the motion to
dismiss, stating:
[W]hile the defendants argue that they have accommodated Holden’s requests after more than
two years—his requests for Humanist study
materials and a community volunteer were not
addressed until after defendants filed their motion to dismiss— they have not stipulated or
demonstrated that their behavior is unlikely to
reoccur after this case is dismissed. Since defendants have not satisfied their burden, the
Court finds that plaintiffs’ claims are not moot.
Id. at 1282. The Court explained, “a defendant’s ‘voluntary cessation of a challenged practice does not deprive a federal Court of its power to determine the legality of the practice.’” Id. (citation omitted). Therefore, a claim is moot “only if ‘subsequent events
[make] it absolutely clear that the allegedly wrongful
behavior could not reasonably be expected to recur.’”
Id. (alteration in original) (citation omitted).
In response, Defendants argue the standard for
voluntary cessation is different when applied to government actors. See Defs.’ Reply at 4-5. Defendants
state Plaintiffs “make no attempt to show that the Department of Corrections’ recognition of Humanism
was reluctant or a sham, much less the ‘clear showing’
usually required to exempt their claims from mootness.” Id. Defendants rely on Rio Grande Silvery Minnow v. Bureau of Reclamation, 601 F.3d 1096 (10th
Cir. 2010). In Rio Grande Silvery Minnow, the United
States Court of Appeals for the Tenth Circuit remanded an environmental action regarding the reallocation of water from agricultural and municipal users to mainstream flows because the action was moot.

37a
Rio Grande Silvery Minnow v. Bureau of Reclamation,
601 F.3d 1096, 1103 (10th Cir. 2010). The Tenth Circuit concluded the voluntary cessation exception to
the mootness doctrine applied and that the action, in
part, should be dismissed for lack of subject matter jurisdiction. See id. at 1120-21. The Tenth Circuit stated
the voluntary cessation exception “exists to counteract
the possibility of a defendant ceasing illegal action
long enough to render a lawsuit moot and then resuming the illegal conduct.” Id. at 1115. The Court further
explained: “Voluntary actions may, nevertheless,
moot litigation if two conditions are satisfied: “(1) it
can be said with assurance that there is no reasonable
expectation that the alleged violation will recur, and
(2) interim relief or events have completely and irrevocably eradicated the effects of the alleged violation.”
Id.
The Court notes voluntary cessation is born out of
federal law. The Wyoming Supreme Court states:
“Our mootness exceptions illustrate that Wyoming’s
mootness doctrine, like that of many other states, is
prudential rather than constitutionally based.” Operation Save Am. v. City of Jackson, 2012 WY 51, ¶ 23,
275 P.3d 438, 449 (Wyo. 2012). “Thus, while we may
look to federal case law for guidance, and our law is
similar to federal precedent in many respects, that
federal case law is not binding on this Court.” Id. ¶ 24,
275 P.3d at 449. In Wyoming, the following exceptions
to mootness exist: (1) “Whe issue is one of great public
importance; (2) “[i]t is necessary to answer the issue
to provide guidance to state agencies and lower
Courte; or (3) “Wile controversy is capable of repetition yet evading review.” In re CRA, 2016 WY 24, ¶
28, 368 P.3d 294, 300 (Wyo. 2016) (citation omitted);

38a
see also Merchant, 2007 WY 159, ¶ 17, 168 P.3d at 863
(applying Wyoming mootness doctrine in 42 U.S.C.
§ 1983 action and stating one exception is if a case presents a controversy capable of repetition yet evading
review).
Under Wyoming law, the Court finds no exception
to the mootness doctrine applies because Plaintiffs do
not present an issue of great public importance, necessary to provide guidance to state agencies and lower
Courts, or an issue capable of repetition yet evading
review. See In re CRA, 2016 WY 24, ¶ 28, 368 P.3d at
300. Plaintiffs do not claim Defendants refused to allow Humanists to gather in groups, obtain study materials, or engage in other activities allowed by the
WDOC. The entirety of Plaintiffs’ Complaint focuses
on Defendants refusing to recognize Humanism as a
faith group. Additionally, even if the Court applies the
federal voluntary cessation exception, the Court finds
both Am. Humanist Ass’n and Rio Grande Silvery
Minnow are distinguishable because Plaintiffs request a remedy that no longer exists and Guy failed to
exhaust his administrative remedies. At this time, the
parties present nothing to suggest the WDOC would
remove Humanism from its list of faith groups and
then refuse to add Humanism to the list later on. See
Rio Grande Silvery Minnow, 601 F.3d at 1115. Moreover, since December 2017, it appears Plaintiffs’
claims were completely eradicated. See id.
Further, the Court finds Plaintiffs did not exhaust
administrative remedies, precluding Plaintiffs’ civil
rights action. “The Prison Litigation Reform Act of
1995 requires inmates to exhaust administrative remedies available to them before they can file a civil
rights action pursuant to 42 U.S.C. § 1983.” Chapman

39a
v. Wyo. Dep’t of Corr., 2016 WY 5, ¶ 16, 366 P.3d 499,
508 (Wyo. 2016). Per WDOC policy, if an inmate
wishes to establish or amend approval for a faith
group, he must fill out WDOC Form #503. See Defs.’
Ex. B. If the WDOC denies an inmate’s request, the
inmate is to appeal the decision using WDOC Form
#503.1. See id.
Guy understood the WDOC policy and procedure
for establishing or amending a faith group because he
submitted WDOC Form #503 requesting Humanism
as a recognized faith. See Defs.’ Ex. C. However, Guy
never appealed the WDOC decision by using Form
#503.1. Because Guy did not exhaust his administrative remedies, his civil rights claims are not ripe. “The
ripeness doctrine is a category of justiciability ‘developed to identify appropriate occasions for judicial action.’” Jacobs v. State ex rel. Wyo. Workers’ Safety &
Comp. Div., 2004 WY 136, ¶ 8, 100 P. 3d 848, 850-51
(Wyo. 2004) (citation omitted). As the Wyoming Supreme Court explains:
The basic rationale of the ripeness requirement, like that of the justiciability requirement,
“. . . is to prevent the Courts, through avoidance
of premature adjudication, from entangling
themselves in abstract disagreements over administrative policies, and also to protect the
agencies from judicial interference until an administrative decision has been formalized and
its effects felt in a concrete way by the challenging parties. The problem is best seen in a twofold aspect, requiring us to evaluate both the
fitness of the issues for judicial decision and the

40a
hardship to the parties of withholding Court
consideration.”
Id. ¶ 8, 100 P.3d at 851 (citation omitted). Because
Guy failed to exhaust his administrative remedies, his
claims are not ripe for decision. Guy’s claims will not
be ripe for review until he utilizes the administrative
remedies available to him and is denied.
For the reasons stated above, the Court finds
Plaintiffs’ claims against Lampert and Tennant-Caine
in their individual capacities pursuant to 42 U.S.C.
§ 1983 are moot. 9 As such, Count I is DISMISSED
WITHOUT PREJUDICE.
B. Count II: Declaratory and Injunctive Relief Against the State of Wyoming, WDOC,
and Lampert and Tennant-Caine In Their
Official Capacity
Plaintiffs’ next claim is for declaratory judgment
and injunctive relief against the State of Wyoming,
WDOC, and Lampert and Tennant-Caine in their official capacity. Defendants argue Count II should be
dismissed because Plaintiffs fail to present a justiciable claim and fail to state a claim upon which relief
may be granted. See Defs.’ Mot. to Dismiss at 21-24.
Because justiciability is a jurisdictional inquiry, the

Because the Court finds Plaintiffs’ 42 U.S.C. § 1983 action
against Lampert and Tennant-Caine in their individual capacity
is moot, the Court will not address the subsequent issues of qualified immunity, res judicata, and whether Plaintiffs fail to state
a claim pursuant to WYO. R. CIV. P. 12(b)(6). In addition, the
Court recognizes its ability to dispose of the case at this stage,
however, because of the many issues presented in the briefs, a
discussion is warranted as to each Count.

9

41a
Court must first determine if Plainiiffs have a justiciable claim. 10 See Allred v. Bebout, 2018 WY 8, ¶ 29,
409 P.3d 260, 268 (Wyo. 2018) (stating “jurisdictional
issues regarding the justiciability of a declaratory
judgment action are questions of law”).
Declaratory Judgment
To proceed in a declaratory judgment action, Plaintiffs must have standing. In 1974, the Wyoming Supreme Court “recognized that declaratory judgment
actions are to be liberally construed, but that nevertheless the Court must make a threshold determination whether there is ‘such dispute which could serve
as the basis of a justiciable issue[.]” Id. ¶ 37, 409 P.3d
at 270; see Brimmer v. Thomson, 521 P.2d 574, 577
(Wyo. 1974). Although the Court must liberally construe the facts in the light most favorable to the nonmoving party, “liberal construction of pleadings does
not ‘excuse omission of that which is material and necessary in order to entitle one to relief.’” Allred, 2018
WY 8, ¶ 32, 409 P.3d at 268 (citations omitted). In
10

In Allred v. Bebout, the Wyoming Supreme Court stated:

The keystone of justiciability in both federal and state jurisprudence is the separation of powers. As the United States
Supreme Court has explained:
The requirement that [a plaintiff] must show actual injury
derives ultimately from the doctrine of standing, a constitutional principle that prevents Courts of law from undertaking tasks assigned to the political branches. It is the role of
Courts to provide relief to claimants, in individual or class
actions, who have suffered, or will imminently suffer, actual
harm; it is not the role of Courts, but that of the political
branches, to shape the institutions of government in such
fashion as to comply with the laws and the Constitution.

Allred v. Bebout, 2018 WY 8, ¶ 30, 409 P.3d 260, 268 (Wyo. 2018)
(alteration in original) (citation omitted).

42a
Brimmer v. Thomas, the Wyoming Supreme Court
adopted the following four-part test for standing:
First, a justiciable controversy requires parties
having existing and genuine, as distinguished
from theoretical, rights or interests. Second, the
controversy must be one upon which the judgment of the Court may effectively operate, as
distinguished from a debate or argument evoking a purely political, administrative, philosophical or academic conclusion. Third, it must
be a controversy the judicial determination of
which will have the force and effect of a final
judgment in law or decree in equity upon the
rights, status or other legal relationships of one
or more of the real parties in interest, or, wanting these qualities be of such great and overriding public moment as to constitute the legal
equivalent of all of them. Finally, the proceedings must be genuinely adversary in character
and not a mere disputation, but advanced with
sufficient militancy to engender a thorough research and analysis of the major issues. Any
controversy lacking these elements becomes an
exercise in academics and is not properly before
the Courts for solution.
Id. (emphasis added) (citations omitted). In a recent
case, the Wyoming Supreme Court recognized the
“Brimmer test is imperfect, its elements often overlap,
and our application has not been uniform. But it is the
mechanism we have for honoring the separation of
powers and ascertaining justiciability.” Id. ¶ 43, 409
P.3d at 272-73. The Court will continue to apply the
Brimmer elements to ascertain justiciability of Plaintiffs’ declaratory judgment action.

43a
Plaintiffs’ request for declaratory judgment hinges
on the first and second Brimmer elements. The first
element requires an existing and genuine right or interest. See id. ¶ 37, 409 P.3d at 270. In their Complaint, Plaintiffs allege Defendants refused to allow
Guy and other inmates to practice Humanism. See
Pls.’ Compl. at 1-2, ¶ 3 (“This action arises out of their
refusal to allow Guy as a Wyoming inmate with sincerely held Humanist convictions to form a Humanist
study group to meet on the same terms that Defendants authorize inmates of theistic religious traditions,
and other religions, to meet; and Defendants’ refusal
to allow inmates to identify as Humanists for assignment purposes.”); see also Pls.’ Br. Opposing Mot. to
Dismiss at 7, ¶ 24 (“Guy wishes to identify as a Humanist in the records of WDOC, and be accorded his
civil rights in the same manner such rights are accorded adherents of other religions that the WDOC
identifies as Recognized Religions.”). Plaintiffs claim
Defendants’ refusal to allow Guy and other inmates to
practice Humanism caused Guy and others to suffer
unfair treatment. See Pls.’ Br. Opposing Mot. to Dismiss at 8, ¶ 28. Specifically, Plaintiffs state:
In the absence of Humanism being accorded
recognition and equal treatment as a Recognized Religion, Guy and other Humanist inmates suffer unfair freatment . . . in the following particulars, among others:
a. The effect of implementation of WDOC policy
by Lampert and Tennant-Caine is to decree
that Humanism is not a religion.
b. Humanist inmates in Wyoming prisons have
no venue for conducting their meetings.

44a
c. Humanist inmates cannot meet in groups in
the same way inmates who are members of
Recognized Religions can meet.
d. WDOC does not recognize Humanist as an
assignment option.
e. No Humanist meeting group is permitted at
any WDOC facility.
Id.
Viewing Plaintiffs’ claims in the light most favorable to them, the Court is unable to conclude Plaintiffs
have an existing and genuine right or interest. It is
undisputed that in December 2017, the WDOC added
Humanism as a recognized faith group. Although
Plaintiffs Complaint was filed prior to the WDOC recognizing Humanism as a religious practice, Plaintiffs
fail to allege how they continue to suffer an existing
and genuine harm. For example, Guy does not allege
that he attempted to practice Humanism, per WDOC
policy, and was denied. Rather, Guy continues to adhere to his claim that Defendants refuse to recognize
Humanism as a faith-based practice. The Court finds
Plaintiffs’ conclusory statements do not establish a
tangible interest was harmed. See Allred, 2018 WY 8,
¶ 44, 409 P.3d at 273 (finding appellants “argued passionately about the importance of separation of powers, but [said] little about a tangible interest that has
been harmed,” and concluded appellants failed to satisfy the first Brimmer element).
Finding Plaintiffs do not satisfy the first Brimmer
element, the Court consequently also finds Plaintiffs
do not satisfy the second Brimmer element—a controversy upon which the judgment of the Court may effectively operate. According to the Wyoming Supreme

45a
Court, “[t]he first two elements of the Brimmer test
are inextricably linked: if a plaintiff fails to allege an
interest has been harmed, a judicial decision cannot
remedy a nonexistent harm.” Id. ¶ 50, 409 P.3d at 275
(citation omitted). Here, the harm alleged is the inability to practice Humanism. A judicial decision cannot remedy this harm because it is nonexistent. Because Guy and AHA fail to satisfy the first and second
Brimmer elements, the Court finds the remaining elements do not warrant a discussion. See id. ¶¶ 50-54,
409 P.3d at 274-76. As such, the Court finds Plaintiffs’
declaratory judgment action fails because Plaintiffs do
not have a justiciable claim. 11
Injunctive Relief
Similarly, Plaintiffs must have standing to obtain
an injunction. For this Court to award an injunction,
Plaintiffs must show actual injury. See id. ¶ 30, 409
P.3d at 268. “The requirement that [a plaintiff] must
show actual injury derives ultimately from the doctrine of standing, a constitutional principle that prevents Courts of law from undertaking tasks assigned
to the political branches.” Id. (alteration in original)
(citation omitted). “A Court will issue an injunction
when the threatened harm is irreparable and there is
no adequate remedy at law.” The Tavern, LLC, 2017
WY 56, ¶ 36, 395 P.3d at 177.

Because the Court finds Plaintiffs do not have a justiciable declaratory judgment action, the Court will not address the merits
of Plaintiffs’ declaratory judgment action or go into additional
discussion regarding Guy’s and AHA’s individual standing to
bring a claim. Standing is discussed more thoroughly under the
Court’s analysis of Plaintiffs’ Count I, as is the topic of voluntary
cessation.
11

46a
The Wyoming Supreme Court recognizes that “an
action for injunction is a form of equitable relief which
is not granted as a matter of right, but the issuance of
which is addressed to the Court’s equitable discretion.” Rialto Theatre, Inc. v. Commonwealth Theatres,
Inc., 714 P.2d 328, 323 (Wyo. 1986). The Wyoming Supreme Court notes “the extraordinary character of the
remedy of injunction, and has stated that a Court
must proceed with caution and deliberation before exercising the remedy.” Id. A Court granting an injunction should proceed with caution because an injunction is “the ‘strong arm of equity,’ [and] should never
be granted expect in a clear case of irreparable injury,
and with a full conviction on the part of the Court of
its urgent necessity.” Lee v. Brown, 357 P.2d 1106,
1110 (Wyo. 1960) (citation omitted). Meaning, “the relief should be awarded only in clear cases, reasonably
free from doubt, and when necessary to prevent great
and irreparable injury. The Court should therefore be
guided by the fact that the burden of proof rests upon
the complainant to establish the material allegations
entitling him to relief.” Id. at 1110-11 (citation omitted).
Here, Plaintiffs seek a temporary restraining order
and permanent injunction against Defendants
to prevent their continuing practice by which
they (a) deprive Guy of his freedom of religion,
(b) prevent Guy from association with other inmates in the practice of Humanism, (c) further
the establishment of selected religions, and (d)
provide unequal treatment favoring the adherents of WDOC Recognized Religions over the
adherents of Humanism.

47a
Pls.’ Compl. at 9, ¶ 69. As with Plaintiffs’ request for
declaratory judgment, Plaintiffs’ request for injunctive relief centers on Defendants recognizing Humanism as a faith-based practice. The Court adheres to its
prior finding that Plaintiffs fail to present an actual
injury in which equitable relief is warranted. In December 2017, Defendants added Humanism to the list
of recognized religious practices and Plaintiffs have
not alleged a denial of their rights since that date. The
Court finds this matter is not appropriate for injunctive relief because Plaintiffs do not demonstrate
“great and irreparable injury.” Rather, Plaintiffs complain of speculative future actions that may or may
not occur and claim the injury Guy will suffer if an
injunction is not granted stems from Defendants not
recognizing Humanism as a faith-based group. See
Pls.’ Br. Opposing Mot. to Dismiss at 11, ¶ 45 (“Failure
to enjoin the alleged violations by the State of Wyoming and WDOC would have severe and irreparable
negative effects by causing Guy to continue to suffer
emotional distress, shame, humiliation, loss of enjoyment of life, and mental anguish.”); see also Healy v.
Smith, 83 P. 583, 589 (Wyo. 1906) (“Courts will not,
however, enjoin against a mere speculative or possible
injury. Instead, a reasonable probability of the injury
resulting must be shown.”). Because the Court finds
Plaintiffs do not present a justiciable declaratory
judgment action and fail to state a claim for injunctive
relief, Count II is DISMISSED WITHOUT
PREJUDICE.

48a
C. Count III: Direct Action Against the State
of Wyoming and the Department of Corrections for Violation of the Wyoming Constitution
Plaintiffs’ final claim is against Lampert and Tennant-Caine in their official capacity for violating various provisions of the Wyoming Constitution. See Pls.’
Compl. at 10, ¶¶ 74-81. Plaintiffs claim Lampert and
Tennant-Caine violated Article I, §§ 7, 18, and 19 of
the Wyoming Constitution, causing a loss of
$120,000.00. See id. In response, Defendants ask the
Court to dismiss Plaintiffs’ state constitutional claims
because the legislature has not authorized suit. See
Defs.’ Mot. to Dismiss at 7-8. At the hearing, Plaintiffs
conceded Wyoming does not recognize a direct action
under the Wyoming Constitution.
According to the Wyoming Supreme Court:
There are few, if any, precedents or rules that
have been recognized longer or followed with
greater fidelity than the rule that was set out
in the case of Hjorth Royalty Company v. Trustees of University, 30 Wyo. 309, 222 P. 9 (1924),
which held that Art. 1 § 8, Wyoming Constitution, is not self-executing; that no suit can be
maintained against the State until the legislature makes provision for such filing; and, that
absent such consent, no suit or claim could be
made against the State . . . . In addition to the
fact that this rule is most clearly established by
numerous Wyoming authorities, in states having a similar provision to the one in our constitution, it has been almost universally held that
such provision, which empowers the legislature
to authorize the bringing of suits against the

49a
State and providing the procedure therefor, is
not self-executing and requires positive, definite legislative action. No suit can be maintained absent such consent set out clearly by
statute.
May v. Se. Wyo. Mental Health Ctr., 866 P.2d 732, 737
(Wyo. 1993) (citation omitted) (finding civil rights
claims based on the Wyoming Constitution fail because there is no legislation); see also WYO. CONST.
art. I, § 8 (“Suits may be brought against the state in
such manner and in such Courts as the legislature
may by law direct.”). It is undisputed that the Wyoming legislature has not authorized suit against the
State for general constitutional violations. As such,
the Court finds Plaintiffs’ Count III fails as a matter
of law and is DISMISSED WITH PREJUDICE.
D. Plaintiffs’ Request to Amend Their Complaint
At the hearing, Plaintiffs asked the Court to
amend their Complaint if the Court finds in Defendants’ favor. Pursuant to WYO. R. CIV. P. 15(a)(2), “a
party may amend its pleading only with the opposing
party’s written consent or the Court’s leave. The Court
should freely give leave when justice so requires.”
WYO. R. CIV. P. 15(a)(2). The Wyoming Supreme Court
states: “The decision to allow a plaintiff to amend his
complaint ‘is vested within the sound discretion of the
district Court and subject to reversal on appeal only
for an abuse of that discretion.” Allred, 2018 WY 8, ¶
59, 409 P.3d at 277 (citation omitted). The decision to
deny a plaintiff s request to amend his complaint will
be reversed “when [the Court] acts in a manner which
exceeds the bounds of reason under the circumstances.” Id. (citation omitted). If the Court finds an

50a
amendment would be futile, the Court may refuse to
allow the amendment. See id. “A proposed amendment is futile if the complaint, as amended, would be
subject to dismissal.” Id. (citation omitted).
Here, Plaintiffs’ Complaint fails for numerous reasons, including lack of standing and failing to present
a justiciable claim. As written, Plaintiffs’ Complaint
focuses on Defendants’ refusal to acknowledge Humanism as a faith-based practice. Plaintiffs concede,
however, that since filing their Complaint Defendants
have remedied the situation when, on December 29,
2017, the WDOC added Humanism to the list of recognized faith groups. The Court finds an amendment
is futile because Plaintiffs’ claims are moot. In addition, until Defendants refuse to allow Guy to engage
in activities related to the practice of Humanism, the
Court finds Plaintiffs fail to state a claim. As such, any
proposed amendment is subject to dismissal because
Plaintiffs’ future claims, if any, are not ripe. Plaintiffs
must show a violation and the exhaustion of administrative remedies before Plaintiffs may bring a cause of
action. Therefore, Plaintiffs’ request to amend their
Complaint is DENIED.
CONCLUSION
For the reasons stated above, the Court finds
Counts I and II fail because Plaintiffs lack standing to
sue, their claims are moot, and fail to state a claim
upon which relief may be granted. Regarding Count
III, the Court finds Wyoming has not recognized a direct action under the Wyoming Constitution and, as
such, Count III fails as a matter of law. Finally, at the
hearing, Plaintiffs asked the Court to amend their
Complaint if the Court finds in Defendants’ favor. The
Court finds an amended complaint is futile because

51a
Plaintiffs lack standing, Plaintiffs’ request for Defendants to recognize Humanism was remedied, and
Plaintiffs failed to exhaust administrative remedies.
IT IS THEREFORE ORDERED THAT Count I is
DISMISSED WITHOUT PREJUDICE.
IT IS FURTHER ORDERED Count
DISMISSED WITHOUT PREJUDICE.

II

is

IT IS FURTHER ORDERED Count III is
DISMISSED WITH PREJUDICE.
IT IS FINALLY ORDERED Plaintiffs request to
amend the Complaint is DENIED.
Dated this 22 day of August 2018.
/s/ Thomas Campbell
Hon. Thomas Campbell
First Judicial District Court Judge

52a
IN THE DISTRICT COURT,
FIRST JUDICIAL DISTRICT IN AND FOR
LARAMIE COUNTY, STATE OF WYOMING
Docket No. 189-1
[filed Dec. 8, 2017]
JONMICHAEL GUY and
AMERICAN HUMANIST ASSOCIATION,

)
)
)
Plaintiffs,
)
)
vs.
)
)
ROBERT O. LAMPERT, individually and in
)
his official capacity, JULIE TENNANT-CAINE, )
individually and in her official capacity, and
)
THE STATE OF WYOMING and the
)
WYOMING DEPARTMENT OF
)
CORRECTIONS, by and through Robert O.
)
Lampert, in his official Capacity as Director
)
of the Department of Corrections,
)
)
Defendants.
)
____________________________________________ )
COMPLAINT
COME NOW Plaintiffs JonMichael Guy and the
American Humanist Association, by and through
their attorneys, Aron & Hennig, LLP, and for their
Complaint state and allege as follows against the
above-named Defendants: (a) Julie Tennant-Caine,
individually and in her official capacity; (b) Robert O.
Lampert, individually and in his official capacity; (c)
the State of Wyoming, and (d) the Wyoming Department of Corrections, an agency of the State of Wyo-

53a
ming, by and through Robert O. Lampert, Director of
the Wyoming Department of Corrections, [Robert O.
Lampert and the said Department are jointly referred to herein as “WDOC”]:
Substance of the Complaint
1.

Plaintiffs JonMichael Guy [“Guy”] and American
Humanist Association [“AHA”] seek to protect
and vindicate their civil liberties and constitutional rights, including separation of church and
state and the entitlement to the equal protection
and due process of law, guaranteed by the Constitutions of the United States and the State of
Wyoming, and they further seeks injunctive relief to grant Guy, and others similarly situated,
the right to practice his and their Humanist religion.

2.

As an adherent of Humanism and supporter of
the AHA, Guy further seeks to vindicate the
right of the American Humanist Association to
promote and support the civil liberties of Guy
and all other citizens, and enforce the constitutional right to separation of church and state and
the right to practice the religion of Humanism.

3.

This action arises out of their refusal to allow
Guy as a Wyoming inmate with sincerely held
Humanist convictions to form a Humanist study
group to meet on the same terms that Defendants authorize inmates of theistic religious traditions, and other religions, to meet; and Defendants’ refusal to allow inmates to identify as Humanists for assignment purposes.

4.

The violations alleged herein are the practice of
individual Defendants Julie Tennant­Caine

54a
[“Tennant-Caine”] and Robert O. Lampert
[“Lampert”], and the relevant policy of the
WDOC, that discriminated against Guy and other Humanist inmates because of their sincerely
held convictions, thereby violating the Establishment Clause of the 1st Amendment and the
Equal Protection Clause of the 14th Amendment
of the United States Constitution.
5.

The discriminatory practice of Tennant-Caine
and Lampert, and the policy of WDOC, are in violation of Article I of the Constitution of the
State of Wyoming, set forth at §7 “No absolute,
arbitrary power;” §18 “Religious liberty;” and §19
“Appropriations for sectarian or religious societies or institutions prohibited.”

6. The discriminatory practice of Tennant-Caine
and Lampert and the policy of the WDOC are also in violation of the Constitution of the State of
Wyoming set forth at §2 “Equality of all;” §6
“Due process of law;” and §7 “No absolute, arbitrary power.”
7. Guy seeks injunctive and declaratory relief and
damages against the Defendants under the provisions of 42 U.S.C. §1983.
Jurisdictional Facts and Facts
Common to All Counts
8. Jurisdiction and venue are proper in that the
acts and omissions of the individual Defendants
and the WDOC which form the basis of Plaintiff’s
causes of action occurred within Laramie County, Wyoming, and all Defendants’ principal place
of business and governance is in Laramie County.

55a
9. Plaintiff Guy, inmate #23934, is in the custody of
WDOC, presently incarcerated at the Wyoming
Medium Correctional Institution in Torrington,
Wyoming [“WMCI”]; at other relevant times, Guy
was incarcerated at the Wyoming State Penitentiary in Rawlins, Wyoming, and the Honor Conservation Camp in Newcastle, Wyoming.
10. Guy was admitted to custody of the WDOC in
January 2006.
11. Defendant Wyoming Department of Corrections
was created in 1991 to manage and administer
the Wyoming institutions for incarceration of
adult offenders.
12. The principal offices of the WDOC are located in
Cheyenne, Laramie County, Wyoming.
13. Defendant Julie Tennant-Caine [“TennantCaine”] at all times relevant to this Complaint
was Deputy Administrator of the WDOC, with
the authority to administer the WDOC policies
with regard to “Establishing and Amending
Faith Group Practices;” her office is located at
the DOC Central Office located in Cheyenne,
Wyoming.
14. Defendant Robert O. Lampert [“Lampert”] at all
times relevant to this Complaint was Director of
the WDOC, with authority to supervise, manage
and administer the WDOC policies with regard
to “Establishing and Amending Faith Group
Practices;” his office is located at the DOC Central Office located in Cheyenne, Wyoming.
15. Plaintiff
American
Humanist
Association
[“AHA”], is a national nonprofit 501(c)(3) organi-

56a
zation incorporated in Illinois with its principal
place of business in Washington, D.C.
16. AHA is a membership organization with over
185 chapters and affiliates nationwide, including
in Wyoming, and more than 400,000 members
and supporters, including members residing in
Wyoming.
17. AHA promotes Humanism and is dedicated to
advancing and preserving separation of church
and state and the constitutional rights of Humanists, atheists and other freethinkers, including Humanist inmates in Wyoming institutions
and others.
18. Humanism comforts, guides, and provides meaning to Guy in the way that religions traditionally
provide such comfort, guidance, and meaning to
others.
19. Humanist principles are promoted and defended
by formal organizations such as the AHA, which
provides a statement of Humanist principles in a
document known as “Humanism and Its Aspirations,” signed by 21 Nobel laureates and thousands of others, and the International Humanist
and Ethical Union (which provides a statement
of Humanist principles known as “The Amsterdam Declaration”).
20. Humanists celebrate holidays including National
Day of Reason (May 2), Darwin Day (February
12), Human Light (in December) and other solstice-related holidays.
21. Humanism adheres to a broad world view that
includes a non-theistic view on the question of

57a
deities; an affirmative naturalistic outlook; an
acceptance of reason, rational analysis, logic, and
empiricism as the primary means of attaining
truth; an affirmative recognition of ethical duties; and a strong commitment to human rights.
22. Humanism has a structure akin to many religions, with clergy/celebrants who perform weddings, funerals, ceremonies, counseling, and other functions of clergy.
23. Humanism has association with entities dedicated to religious Humanism, such as the American
Ethical Union based on the Ethical Culture
movement founded in 1876, and the Society for
Humanistic Judaism founded in 1969, among
others.
24. AHA’s adjunct organization, the Humanist Society, is a religious, educational, charitable, nonprofit 501(c)(3) organization started in 1939 by a
group of Quakers as a non-theistic society based
on similar goals and beliefs, with tenets that
promise a union between science and ethics. The
society was authorized to issue charters anywhere in the world and to train and certify people, who are accorded the rights and privileges
granted by law to priests, ministers, and rabbis
of traditional religions.
25. Modern Humanism, also called Naturalistic
Humanism, Scientific Humanism, Ethical Humanism, and Democratic Humanism, was defined by one of its proponents as “a naturalistic
philosophy that rejects all supernaturalism and
relies primarily upon reason and science, democracy and human compassion.”

58a
26. Religious Humanism largely emerged out of Ethical Culture, Unitarianism, and Universalism.
Many Unitarian Universalist congregations and
all Ethical Culture societies describe themselves
as Humanist. Religious Humanism offers a basis
for moral values, an inspiring set of ideals,
methods for dealing with life’s harsher realities,
a rationale for living life joyously, and an overall
sense of purpose.
27. Secular Humanism is an outgrowth of eighteenth
century enlightenment rationalism and nineteenth century free thought. Many secular
groups, such as the Council for Secular Humanism and the American Rationalist Federation,
and many otherwise unaffiliated academic philosophers and scientists, advocate this philosophy.
28. Secular and Religious Humanists share a world
view and principles; both Secular and Religious
Humanists were signers of the Humanist Manifesto in 1933, and its revisions in 1973 and 2003.
29. Humanists are united under the Humanist Manifesto III, also known as “Humanism and Its Aspirations” [attached hereto as Appendix A], that
is a consensus of Humanist convictions. The ultimate concern for Humanists is to lead ethical
lives of personal fulfillment that aspire to the
greater good of humanity, to minimize inequities
of circumstance and ability, and to promote a
just distribution of nature’s resources and the
fruits of human effort so that as many as possible can enjoy a good life.

59a
30. The United States Supreme Court, and the
courts of many states have recognized “Secular
Humanism” as a religion for 1st Amendment
purposes.
31. Guy wishes to meet with other Humanists who
share his sincerely held Humanist convictions, to
include the principles set forth in the “Affirmations of Humanism” that are promulgated within
Humanism and to which Guy subscribes.
COUNT I: Monetary Damages for Civil Rights
Violations [Defendants Lampert and TennantCaine, individually]
32. By this reference Plaintiffs incorporate herein
paragraphs 1-31, inclusive, of this Complaint as
though set forth in their entirety.
33. The actions alleged herein against Defendants
Lampert and Tennant-Caine, individually, were
deprivation of Guy’s civil rights in violation of 42
U.S.C. §1983.
34. At all relevant times, Lampert was an individual
acting under color of state law by virtue of his
employment with WDOC and his position as its
Director.
35. At all relevant times, Tennant-Caine was an individual acting under color of state law by virtue
of her employment with WDOC and her position
as its Deputy Administrator.
36. Lampert and Tennant-Caine have discriminated
against Guy and other Humanist inmates, violating the United States Constitution, by implementing administrative policies concerning inmate religious rights, as follows:

60a
a.

When an inmate is admitted to a Wyoming prison, the inmate may designate a
religious preference assignment.

b.

The religious preference information is entered in WDOC records, that are shared
among all WDOC supervisors and staff.

c.

In coordination with the WDOC, Lampert
and Tennant-Caine are responsible for approving inmate religious requests and assignments.

d.

By their acts alleged herein, Lampert and
Tennant-Caine have precluded Guy’s Humanist religious preference from entry in
WDOC records, and have denied Guy’s religious requests and assignments.

37. Lampert and Tennant-Caine implement WDOC
policy that recognizes and accepts the following
religious assignments, referred to as “Recognized
Religions.”
a.
b.
c.
d.

Asatru/Odinism
Baha’i
Buddhism
The Church of Christ, Scientist (Christian
Science)
e. Eckankar
f. Hindu
g. ISKCON (International Society for Krishna Consciousness)
h. Islam
i. Jehovah’s Witnesses
j. Judaism

61a
k. Church of Jesus Christ of Latter-Day
Saints (Mormon)
l. Native America
m. Protestant
n. Rastafarian
o. Roman Catholic
p. Satanism
q. Seventh-Day Adventist
r. Sikh
s. Sufi
t. Taoism
u. Thelema (Gnostic)
v. Unity
w. Unitarian Universalist
x. Wicca
38. Defendants Lampert and Tennant-Caine refuse
to allow Guy, an inmate with sincerely held Humanist convictions, to form a Humanist study
group to meet on the terms they authorize inmates of theistic religious traditions and other
religions to meet.
39. This action also arises out of the refusal by Defendants Lampert and Tennant-Caine to allow
Guy and other inmates to identify as Humanists
for assignment purposes.
40. In discriminating against Guy, Lampert and
Tennant-Caine violate the Free Exercise and Establishment Clauses of the 1st Amendment, and
the Equal Protection Clause of the 14th Amendment, of the United States Constitution.

62a
41. Guy wishes to identify as a Humanist in the records of WDOC, and be accorded his civil rights in
the same manner such rights are accorded adherents of other religions that the WDOC identifies as Recognized Religions.
42. In discriminating against Guy and other Humanist inmates, Defendants Lampert and TennantCaine have implemented WDOC policy by
providing favorable treatment to the WDOC
Recognized Religions in formally recognizing or
accommodating their religious practices and ceremonial activities, such as: Outdoor Religious
Fire Ceremonies Guidelines; List of Current Approved and Recognized Diets; WDOC Religious
Calendar by Faith Group; and WDOC Religious
Calendar by Date.
43. Lampert and Tennant-Caine have implemented
WDOC policy by favorable treatment to inmate
members of Recognized Religions in providing
them privileges denied to Guy and other Humanist inmates, including: (a) meeting with community-funded or volunteer chaplains; (b) keeping
religious items and jewelry; (c) having eligibility
for enrollment in religious correspondence courses; (d) having community chaplains perform religious rites or rituals; (e) meeting with their respective community groups to develop their ethical foundations with some sense of consistency in
their teaching; and (f) conducting annual religious ceremonial feasts.
44. Guy has been denied religious association with
no less than twelve other Humanist inmates at
the WDOC facilities where he has been incarcerated.

63a
45. In the absence of Humanism being accorded
recognition and equal treatment as a Recognized
Religion, Guy and other Humanist inmates suffer unfair treatment as stated above and in the
following particulars, among others:
a.

The effect of implementation of WDOC
policy by Lampert and Tennant-Caine is
to decree that Humanism is not a religion.

b.

Humanist inmates in Wyoming prisons
have no venue for conducting their meetings.

c.

Humanist inmates cannot meet in groups
in the same way inmates who are members of Recognized Religions can meet.

d.

WDOC does not recognize Humanist as an
assignment option.

e.

No Humanist meeting group is permitted
at any WDOC facility.

46. In discriminating against Guy because of his sincerely held convictions, Lampert and TennantCaine have knowingly violated Guy’s right to
freedom of religion guaranteed by the Free Exercise Clause contained in the 1st Amendment to
the United States Constitution.
47. In discriminating against Guy and other Humanist inmates because of their sincerely held convictions, Lampert and Tennant-Caine have favored the WDOC Recognized Religions over Humanism, and thereby have knowingly violated
the Establishment Clause of the 1st Amendment
to the United States Constitution.

64a
48. In discriminating against Guy and other Humanist inmates because of their sincerely held convictions, Lampert and Tennant-Caine have intentionally refused to accord them the same and
equal treatment that is accorded to members of
the WDOC Recognized Religions, and thereby
have knowingly denied to Guy and other Humanist inmates the right to equal protection of
the law guaranteed by the 14th Amendment of
the United States Constitution.
49. At all relevant times, the right of Guy to freedom
of religion was a clearly established legal principle that was well known to Lampert and Tennant-Caine.
50. At the time of the violations set forth herein, the
prohibition against establishing or favoring one
religion over another was a clearly established
legal principle that was well known to Lampert
and Tennant-Caine.
51. At the time of the violations set forth herein, the
prohibition by which Guy was denied the same
and equal treatment accorded to members of the
WDOC Recognized Religions, and to the equal
protection of the law was a clearly established
principle that was well known to Lampert and
Tennant-Caine.
52. As a direct and proximate result of the acts and
omissions by Lampert and Tennant­ Caine as alleged herein, Guy has suffered the loss of essential and fundamental civil rights in the monetary
value of One Hundred Twenty Thousand Dollars
[$120,000.00] or such greater or other amount as
will be proved at trial herein.

65a
53. As a direct and proximate result of the acts and
omissions by Lampert and Tennant­ Caine as alleged herein, Guy has suffered emotional distress, shame, humiliation, loss of enjoyment of
life and mental anguish.
54. The acts, omissions and discriminations by Lampert and Tennant-Caine as alleged herein were
committed with such willful and wanton disregard of the consequences, and of Guy’s wellknown constitutional rights, that Lampert and
Tennant-Caine should be ordered to pay exemplary and punitive damages in such amount as
will deter them and others similarly situated
from such misconduct in the future.
COUNT II: Declaratory and Injunctive
Relief against The State of Wyoming,
WDOC, and Lampert and Tennant-Caine,
in their official capacities
55. By this reference Plaintiffs incorporate herein
paragraphs 1-54, inclusive, of this Complaint as
though set forth in their entirety.
56. The Establishment Clause of the 1st Amendment
prohibits a state government from passing any
law that aids any religion or prefers one religion
over another.
57. The laws of the State of Wyoming as implemented in WDOC policies by Lampert and TennantCaine with respect to Guy and other Humanist
inmates violates each of those prohibitions.
58. The Free Exercise Clause of the 1st Amendment
to the United States Constitution prohibits a
state government from passing any law that

66a
prohibits or interferes with the right to freedom
of religion, the right to accept any religious belief
and the right to engage in religious rituals.
59. The laws of the State of Wyoming as implemented in WDOC policies by Lampert and TennantCaine with respect to Guy and other Humanist
inmates interferes with and violates their freedom of religion and their right to accept any religious belief and engage in religious rituals.
60. The Equal Protection Clause of the 14th
Amendment to the United States Constitution
prohibits the State of Wyoming from denying to
Guy the same and equal treatment accorded to
members of the WDOC Recognized Religions.
61. The laws of the State of Wyoming as implemented in WDOC policies by Lampert and TennantCaine with respect to Guy and other Humanist
inmates denies to Guy the same and equal
treatment accorded to members of the WDOC
Recognized Religions.
62. At all times relevant hereto, Lampert and Tennant-Caine in their official capacities were the
officers and agents of the Wyoming Department
of Corrections and of the State of Wyoming.
63. The State of Wyoming, WDOC, Lampert and
Tennant-Caine have no compelling government
interest–no valid government interest at all–to
justify their violations of the Establishment and
Free Exercise Clauses of the 1st Amendment, or
the Equal Protection Clause of the 14th Amendment, to the United States Constitution.

67a
64. To redress these constitutional violations, Guy
and AHA seek injunctive and declaratory relief
under the provisions of 42 U.S.C. §1983, against
Defendants State of Wyoming, Wyoming Department of Corrections, and Lampert and Tennant-Caine in their official capacities.
65. Guy (a) is an individual whose rights, status and
legal relations are affected by the Establishment
and Free Exercise Clauses of the 1st Amendment, and the equal protection clause of the 14th
Amendment, to the United States Constitution,
and by the laws of the State of Wyoming as implemented in WDOC policies by Lampert and
Tennant-Caine; and (b) is an individual who desires to obtain a declaration of his legal rights
and legal status with respect to those laws and
the Defendants herein.
66. A justiciable controversy exists between Plaintiffs and Defendants, and entry of a declaratory
judgment providing injunctive relief as sought
herein will serve to remove uncertainty and terminate the controversy between the parties.
67. The conduct of the State of Wyoming and WDOC
in preventing Guy’s freedom of religion and practice of Humanism, and in aiding and preferring
the Recognized Religions over Humanism, and in
denying equal treatment to adherents of Humanism is a continuing violation of the Constitution
of the United States.
68. WDOC’s continuing prevention of Guy’s practice
of religion, and the continuing refusal to list
Humanism as a Recognized Religion, causes irreparable harm by depriving Guy of his freedom

68a
of religion, by preventing Guy from his association with other inmates in the practice of Humanism, and bestows the imprimatur of the
courts on the unconstitutional practices of the
State of Wyoming and WDOC of establishing selected religions and providing unequal treatment
by favoring the adherents of all other WDOC
Recognized Religions over the adherents of Humanism.
69. Guy and AHA seek a temporary restraining order and permanent injunction against the State
of Wyoming, WDOC, and Lampert and TennantCaine in their official capacities, to prevent their
continuing practice by which they (a) deprive
Guy of his freedom of religion, (b) prevent Guy
from association with other inmates in the practice of Humanism, (c) further the establishment
of selected religions, and (d) provide unequal
treatment favoring the adherents of WDOC Recognized Religions over the adherents of Humanism.
70. Guy and AHA further seek a temporary restraining order and permanent injunction enjoining
and ordering all Defendants to: (i) Accord Humanism the status of a “Recognized Religion”
and permit Humanism as an assignment option;
(ii) Authorize Humanist study groups on the
same terms as other faith traditions at all Department facilities; and (iii) Prohibiting discrimination against all Humanist inmates.
71. Failure to enjoin the ongoing constitutional violations by the State of Wyoming and WDOC
would have severe and irreparable negative consequences by causing Guy to continue to suffer

69a
emotional distress, shame, humiliation, loss of
enjoyment of life, and mental anguish.
72. Guy further seeks entry of a declaratory judgment affirming his right to practice his chosen
religion of Humanism; declaring that exclusion of
Humanism as a WDOC Recognized Religion is a
violation of the constitutional prohibition against
establishment of religion; and, declaring that exclusion of Humanism as a WDOC Recognized Religion is a violation of the constitutional guarantee of equal protection of the law; and further declaring that Defendants’ actions set forth herein:
(a) violate the Establishment Clause of the 1st
Amendment to the United States Constitution;
(b) violate the Free Exercise Clause of the 1st
Amendment to the United States Constitution;
(c) discriminate against Guy on account of his religious convictions; (d) violate the Equal Protection Clause of the 14th Amendment to the United States Constitution; (e) lack a secular purpose, have the effect of preferring some religions
over others, particularly theistic traditions over
non-theistic traditions, resulting in excessive
government entanglement with religion; and (f)
lack a compelling, important or legitimate governmental interest.
73. Guy and AHA seeks equitable relief because the
limited monetary damages that can be awarded
do not provide an adequate remedy at law for the
ongoing deprivation of the constitutional rights
of Guy and other Humanist inmates.

70a
COUNT III: Direct Action Against the State of
Wyoming and the Department of Corrections
for violation of the Wyoming Constitution
74. By this reference Plaintiffs incorporate herein
paragraphs 1-45, inclusive, of this Complaint as
though set forth in their entirety.
75. In discriminating against Guy and other Humanist inmates because of their sincerely held convictions, Lampert and Tennant-Caine in their official capacities have willfully, knowingly and intentionally abused their power, in violation of
Article I, §7 of the Constitution of the State of
Wyoming.
76. In discriminating against Guy and other Humanist inmates because of their sincerely held convictions, Lampert and Tennant-Caine in their official capacities have knowingly violated Article
I, §18 of the Constitution of the State of Wyoming, which provides that “the free exercise and
enjoyment of religious profession and worship
without discrimination or preference shall be
forever guaranteed in this state.”
77. In discriminating against Guy and other Humanist inmates because of their sincerely held convictions, and by using public funding to favor
and provide support for the WDOC Recognized
Religions, Lampert and Tennant-Caine in their
official capacities have knowingly violated Article I, §19, of the Constitution of the State of Wyoming, which provides that “no money of the
state shall ever be given or appropriated to any
sectarian or religious society or institution.”

71a
78. At all relevant times, Lampert and TennantCaine in their official capacities were officers and
agents of the Wyoming Department of Corrections and of the State of Wyoming.
79. Because the conduct of Lampert and TennantCaine has violated the clearly established prohibitions of the Wyoming Constitution, the State of
Wyoming should be held liable for such misconduct by the doctrine of respondeat superior.
80. Any statutory provision that purports to extend
sovereign immunity to the State of Wyoming for
the violation of Article I, §§7, 18 & 19 of the Wyoming Constitution would itself be unconstitutional as applied to the deprivation of the rights
of Guy and other Humanist inmates because of
their sincerely held convictions.
81. As a direct and proximate result of the acts,
omissions and discriminations by Lampert and
Tennant-Caine as alleged herein, Guy has suffered the loss of essential civil rights in the sum
of One Hundred Twenty Thousand Dollars
[$120,000.00] or such greater or other monetary
amount as will be proved at trial herein.
WHEREFORE, Plaintiffs JonMichael Guy and
American Humanist Association pray that the Court
enter an appropriate interlocutory temporary restraining order, and upon the trial of the matters alleged herein that the Court enter its permanent injunction, and enter its judgment in favor of Plaintiffs
and against the Defendants, as follows:
A. On Count I herein, for entry of judgment in favor
of Guy against Defendants Robert O. Lampert,
individually, and Julie Tennant-Caine, individu-

72a
ally, jointly and severally, in the sum of One
Hundred
Twenty
Thousand
Dollars
[$120,000.00] or such greater or other amount as
will be proved at trial herein; together with entry
of judgment in favor of AHA for monetary damages in the nominal sum of One Dollar [$1.00] to
vindicate the rights and claims of AHA set forth
herein.
B. On Count II herein, for entry of a temporary restraining order, preliminary injunction and permanent injunction against Defendant State of
Wyoming, against Defendant Wyoming Department of Corrections, and against Defendant Robert O. Lampert, in his official capacity, and Defendant Julie Tennant-Caine, in her official capacity, and against all of their successors, enjoining and prohibiting the practices by which they
deprive Guy and other Humanist inmates of
freedom of religion, prevent Guy from association
with other inmates in the practice of Humanism,
further the establishment of selected religions,
and provide unequal treatment favoring the adherents of all other WDOC Recognized Religions
over the adherents of Humanism;
And further ordering the said Defendants to:
(i) Accord Humanism the status of a “Recognized Religion” equivalent to that of already accepted religions in all WDOC facilities, and to permit Humanism as an
assignment option in WDOC administrative records;
(ii) Authorize Humanist study groups in all
Department of Correction facilities and al-

73a
low such Humanist groups to meet on the
same terms the Defendants authorize
groups for adherents of other faith traditions;
(iii) Authorize Guy to meet in a Humanist
study group on the same terms Defendants authorize for inmates of recognized
faith traditions;
(iv) Authorize a Humanist study group upon
the request of any inmate at any Department facility in which religious groups are
permitted, and approve of said Humanist
group without requiring inmates to seek
any administrative remedy that is not required of adherents of any Recognized Religion.
(v) Provide any such Humanist group with
the same rights, privileges, and benefits,
including outside volunteers, as are accorded other Recognized Religions; and,
(vi) Prohibit Defendants, their agents, successors and anyone in active concert with
them, from otherwise discriminating
against Humanist inmates.
C. On Count II herein, for entry of a declaratory
judgment that finds and decrees the following, or
such other and similar declaration as the Court
deems proper:
(i) That Defendants’ actions set forth herein
violate the Establishment Clause of the
1st Amendment to the United States Constitution;

74a
(ii) That Defendants’ actions set forth herein
violate the Free Exercise Clause of the 1st
Amendment to the United States Constitution.
(iii) That Defendants’ actions set forth herein
have discriminated against Guy on account of his religious convictions.
(iv) That Defendants’ actions set forth herein
violate the Equal Protection Clause of the
14th Amendment to the United States
Constitution.
(v) That Defendants’ actions set forth herein
lack a secular purpose, have the effect of
preferring some religions over others, particularly theistic traditions over nontheistic traditions, resulting in excessive
government entanglement with religion.
(vi) Defendants’ actions set forth herein lack a
compelling, important or legitimate governmental interest.
D. On Count III herein, for entry of judgment in the
sum of One Hundred Twenty Thousand Dollars
[$120,000.00] or such other amount as will be
proved at trial herein, against The State of Wyoming for knowing violation of the Wyoming
Constitution.
E. On Count I herein, for award of exemplary and
punitive damages against Defendants Lampert
and Tennant-Caine in such amount as will deter
them and others similarly situated from similar
misconduct in the future.

75a
F. For award of Plaintiffs’ reasonable attorneys fees
as provided by law.
G. For award of Plaintiffs’ costs of suit herein, and
for such other and further relief as the Court
deems the Plaintiffs entitled, the premises considered.
Dated this 6th day of December 2017.
ARON & HENNIG, LLP
Attorneys for Plaintiffs
By: /s/ Alex J. Mencer
C.M. Aron, # 5-1417
Alex J. Mencer, # 7-5836
221 East Ivinson Avenue, Suite 200
Laramie, WY 82070
Telephone: (207) 742-6645

